<html>
<title> - HUMAN FACTORS ISSUES IN RAIL SAFETY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                  HUMAN FACTORS ISSUES IN RAIL SAFETY

=======================================================================

                                (109-92)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                               RAILROADS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
30-662                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                       SUBCOMMITTEE ON RAILROADS

                  STEVEN C. LaTOURETTE, Ohio, Chairman

THOMAS E. PETRI, Wisconsin           CORRINE BROWN, Florida
SHERWOOD L. BOEHLERT, New York       NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida                JERROLD NADLER, New York
SPENCER BACHUS, Alabama              BOB FILNER, California
JERRY MORAN, Kansas                  ELIJAH E. CUMMINGS, Maryland
GARY G. MILLER, California           EARL BLUMENAUER, Oregon
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JON PORTER, Nevada                   JERRY F. COSTELLO, Illinois
TOM OSBORNE, Nebraska                EDDIE BERNICE JOHNSON, Texas
MICHAEL E. SODREL, Indiana           JOHN BARROW, Georgia
LYNN A. WESTMORELND, Georgia, Vice-  JAMES L. OBERSTAR, Minnesota
Chair                                  (ex officio)
DON YOUNG, Alaska
  (ex officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Boardman, Hon. Joseph, Administrator, Federal Railroad 
  Administration.................................................     4
 Chipkevich, Robert, Director, Office of Rail, Pipeline and 
  Hazardous Materials Investigation, National Transportation 
  Safety Board...................................................     4
 Hamberger, Edward, President and Chief Executive Officer, 
  Association of American Railroads..............................    14
 Moore-Ede, Martin, M.D., Ph.D, Chief Executive Officer, 
  Circadian Technologies, Inc....................................    14
 Pickett, W. Dan, International President, Brotherhood of 
  Railroad Signalmen.............................................    14
 Stem, James, Alternate National Legislative Director, United 
  Transportation Union...........................................    14
 Timmons, Richard F., President, American Short Line and Regional 
  Railroad Association...........................................    14
 Tolman, John P., Vice President and National Legislative 
  Representative, Brotherhood of Locomotive Engineers and 
  Trainmen.......................................................    14

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    87
Oberstar, Hon. James L., of Florida..............................   119
Porter, Hon. Jon, of Nevada......................................   131
Young, Hon. Don, of Alaska.......................................   250

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Boardman, Hon. Joseph...........................................    36
 Chipkevich, Robert..............................................    73
 Hamberger, Edward...............................................    89
 Moore-Ede, Martin...............................................   107
 Pickett, W. Dan.................................................   123
 Stem, James.....................................................   132
 Timmons, Richard F..............................................   239
 Tolman, John P..................................................   242

                       SUBMISSIONS FOR THE RECORD

 Boardman, Hon. Joseph, Administrator, Federal Railroad 
  Administration:

  Response to a question from Rep. LaTourette....................     8
  Train Accidents Caused by Human Factors, by Most Frequently 
    Reported Cause, chart........................................    62
  Federal Railroad Administration (FRA) and Pipeline and 
    Hazardous Materials Administration (PHMSA) Regulations 
    Requiring Training, Testing, Qualification, or Cetification 
    of Certain Railroad Employees, chart.........................    67
 Chipkevich, Robert, Director, Office of Rail, Pipeline and 
  Hazardous Materials Investigation, National Transportation 
  Safety Board, letter to Don M. Hahs, National President, 
  Brotherhood of Locomotive Engineers and Trainmen and Paul C. 
  Thompson, International President, Untied Transportation Union, 
  from Mark V. Rosenker, Acting Chairman, National Transportation 
  Safety Board, July 20, 2006....................................    82
 Hamberger, Edward, President and Chief Executive Officer, 
  Association of American Railroads, Collision Analysis Working 
  Group (CAWG) Rebuttal..........................................   104
 Stem, James, Alternate National Legislative Director, United 
  Transportation Union:

   Evaluation of the U.S. Department of Transportation Efforts in 
    the 1990's to Address Operator Fatigue, National 
    Transportation Safety Board report, NTSB/SR-99/01, May 1999..   143
  65 Main-Track Train Collisions, 1997 through 2002: Review, 
    Analysis, Findings, and Recommendations, Federal Railroad 
    Administration, Collision Analysis Working Group (CAWG), 
    Final Report, February 21, 2006..............................   153

                         ADDITION TO THE RECORD

Current Stateus of Fatigue Managment in the Railroad Industry, 
  Sherry, Patrick, Ph.D, Associate Professor, Director, National 
  Center for Intermodal Transportation, Intermodal Transportation 
  Institute, University of Denver, report........................   253


                   HUMAN FACTORS ISSUES IN RAIL SAFETY

                              ----------                              


                         Tuesday, July 25, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Railroads, Washington, D.C.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, the Honorable Steven 
C. LaTourette [Chairman of the subcommittee] presiding.
    Mr. LaTourette. We are going to call the Subcommittee to 
order this morning. Good morning. The Subcommittee will come to 
order. I want to welcome all of the members and witnesses to 
today's hearing on the subject of Human Factors Issues in Rail 
Safety. Working the rails can be a difficult and dangerous job. 
The men and women of our Nation's railroads work outdoors in 
the blistering heat of summer and the frigid cold of winter. 
Whether through mountain blizzards or coastal storms, the 
trains have to go through. Our Nation's railroads run 24 hours 
a day, 365 days a year. Railroad employees often work through 
the night or on weekends or on holidays. Overtime work is the 
norm on many of our major railroads.
    This grueling schedule can have an impact on safety. Many 
railroad accidents have been attributed to employee fatigue, 
including accidents involving major loss of life. The work 
schedules of railroad employees is governed by the Hours of 
Service Act, a law dating back to 1907 when the railroad still 
ran steam engines. The purpose of today's hearing is to revisit 
the Hours of Service Act in light of new medical discoveries 
with due regard to the demands and responsibilities placed on 
employees in today's railroad operating environment.
    Before yielding to Mr. Barrow, our guest Ranking Member 
today, I will just do a couple of brief housekeeping items.
    I ask unanimous consent to allow 30 days for members to 
revise and extend their remarks and to permit the submission of 
additional statements and materials by members and witnesses. 
Without objection, so ordered.
    Also, I ask unanimous consent to permit Ms. Schwartz of 
Pennsylvania to sit with the Subcommittee and to ask questions 
throughout the course of the hearing. Without objection, so 
ordered.
    Now it is my pleasure to yield to Mr. Barrow for any 
opening remarks he would want to make.
    Mr. Barrow. Thank you, Mr. Chairman.
    Along the housekeeping lines, I would also like to ask 
unanimous consent that Representative Schwartz be allowed to 
sit as guest Ranking Member of this Committee when I have to 
leave.
    Mr. LaTourette. Without objection.
    Mr. Barrow. Thank you, Mr. Chairman, for holding this 
hearing.
    Since the 1980's, the National Transportation Safety Board 
has been urging the Federal Railroad Administration, the 
railroad industry, and labor to create common sense solutions 
to reduce accidents caused by human factors. A leading cause of 
these accidents is fatigue. In 1999, the NTSB published an 
evaluation of the Department of Transportation's efforts to 
address operator fatigue.
    Rail employees often work long and unpredictable hours and 
are constantly under the threat of exhaustion. In fact, rail 
workers put more time on the clock than any other worker in the 
transportation industry.
    The NTSB recommended the rail industry develop schedules 
and working conditions to encourage employees to rest and 
implement better testing to determine fitness for duty. They 
also recommend the industry work more closely with its 
employees to reduce the amount of tasks that induce fatigue. 
The FRA agreed with the NTSB's findings, and in 2003, they 
established the North American Rail Alertness Partnership, a 
joint labor-management forum to address these issues. However, 
the NTSB made these original recommendations over seven years 
ago, and we haven't heard of any specific actions the industry 
has taken to address fatigue with one exception, new technology 
and positive train control.
    Combating fatigue is a win-win proposition for the rail 
industry. The railroads should provide across the board 
training on fatigue management. Rail workers and their 
supervisors should get regular training on the importance of 
sleep, how to recognize sleep disorders, sleep strategies, and 
how to counter the effects of fatigue which can be effective in 
dealing with fatigue and ensuring the safe operation of our 
trains.
    The railroads should also allow workers who are fatigued to 
go home when they are tired without fear of being disciplined 
or dismissed from their jobs. In addition, the railroad should 
actively work to limit limbo time where an employee is neither 
on the clock or off but is usually traveling from one job to 
the next.
    The FRA should be rigorously enforcing the hours of service 
law, developing crew scheduling practices for the railroads, 
and requiring the railroads to adopt fatigue mitigation plans 
which should be submitted to the FRA and approved by the FRA. 
Congress needs to revise the Railroad Hours of Service Act 
which was enacted in 1907, which everyone agrees is in 
desperate need of updating.
    Thank you, Mr. Chairman. I look forward to hearing from 
witnesses today, and I yield back the balance of my time.
    Mr. LaTourette. I thank you, Mr. Barrow.
    Mr. Cummings?
    Mr. Cummings. Thank you very much, Mr. Chairman. I will be 
very brief. I too thank you, Mr. Chairman, for holding this 
hearing with regard to the human factors that affect safety on 
our national railroad network.
    During a hearing held by this Subcommittee earlier this 
year to examine overall trends in rail safety, several of the 
witnesses who appeared before us emphasized the fact that in 
2005, human factors were the primary causes of accidents among 
all four major Class I railroads. Today's hearing will give us 
the opportunity to explore the human factors that affect rail 
safety in more detail.
    Statistics published by the Association of American 
Railroads show that during 2004, there were 556 railroads 
operating more than 201,000 miles of track and employing nearly 
216,000 workers. The total number of accidents and incidents of 
all kinds per year on the rail network have fallen dramatically 
over the past decade from nearly 17,719 in 1996 to just under 
13,800 in 2005.
    However, while these overall trends are very encouraging, 
there are other safety indicators that have not shown this kind 
of improvement. For example, during the 1996 to 2005 period, 
the total number of train accidents has been steadily 
increasing. In addition, after falling between 2000 and 2002, 
the number of train collisions has been rising in recent years, 
increasing from 192 collisions in 2002 to 261 collisions in 
2005. Unfortunately, the rate of human factors in train 
accidents has shown a particularly steep rise, increasing from 
783 accidents attributed to human factors in 1996 to more 1,200 
attributed to human factors in 2005.
    Among those human factors that are contributing to 
accidents is worker fatigue which was cited as a contributing 
cause to the 2004 train collision in Texas that led to the 
release of a chlorine gas cloud that killed two local 
residents. Trains now carry more than 1.8 million carloads of 
hazardous materials per year, and the safe operation of trains 
is particularly essential to ensuring the safe transportation 
of such cargos. The prevalence of fatigue as a contributing 
factor in rail accidents calls into question whether current 
regulations regarding hours of service and current railroad 
crew scheduling procedures are truly designed to protect the 
safety of workers and of the communities through which trains 
pass.
    Mr. Chairman, a month with 31 days has only 744 hours in 
it. The National Transportation Safety Board has indicated that 
the maximum allowable number of hours that a locomotive 
engineer could work under current rules governing hours of 
service is 432. By comparison, a truck driver is allowed to 
work only 260 per month while an airline pilot may work only 
100 hours per month.
    In addition to the sheer number of hours worked, train 
crews are on call every hour of the day and may be summoned for 
work at any time. Such an irregular schedule surely interferes 
with train crews' ability to plan their lives including their 
sleep schedules. These are certainly less than optimal working 
conditions for anyone but particularly for someone who is 
driving a freight train weighing hundreds of tons and 
potentially carrying a highly toxic or even deadly substance.
    I look forward to hearing from today's witnesses regarding 
what can be done to reduce the human factors that are 
contributing to train accidents. With that, Mr. Chairman, I 
thank you and I yield back.
    Mr. LaTourette. I thank you, Mr. Cummings.
    Our hearing today is comprised of two panels. The first 
panel has the Honorable Joseph Boardman who is the 
Administrator, of course, of the Federal Railroad 
Administration; and Mr. Robert Chipkevich who is the Director 
of the Office of Rail, Pipeline, and Hazardous Materials 
Investigations at the NTSB.
    Gentlemen, thank you both for coming. We have received your 
written testimony. If you would be so kind as to summarize in 
five minutes your observations for us today, we would 
appreciate it.
    Administrator Boardman, welcome, and we look forward to 
hearing from you.

  TESTIMONY OF THE HONORABLE JOSEPH BOARDMAN, ADMINISTRATOR, 
 FEDERAL RAILROAD ADMINISTRATION; ROBERT CHIPKEVICH, DIRECTOR, 
       OFFICE OF RAIL, PIPELINE, AND HAZARDOUS MATERIALS 
      INVESTIGATION, NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Boardman. Good morning, Mr. Chairman. Thank you and 
Ranking Member Barrow and Committee members.
    Human factor issues in rail safety bring all of the issues 
for safety together in one place. Your Committee has chosen the 
single most difficult issue that faces the railroad industry 
today. Railroads must manage their human assets to meet both 
customer expectations and stockholder expectations and do so 
within a socially acceptable environmental, safety, and 
security framework. This framework has safety as the base case 
for everything else that is demanded of railroads today. At the 
center of that base case are the humans.
    Last month, I told you that human factors as a cause has 
increased by another percentage point to 38 percent of all 
causes for train accidents. The human factors that are leading 
the list of causes for accidents include switches improperly 
lined and shoving movements, in addition to things like leaving 
cars out to foul main tracks, improper handbrake use, and a few 
others that will be included on a new Federal rule now making 
its way through the clearance process. That new rule will make 
cardinal railroad rules become Federal rules and subject to 
Federal law if violated and not cared for.
    Today a railroad must meet the demands of a 24-hour, 7-day-
a-week global supply chain and logistics management industry to 
be successful and therefore profitable. Both railroads and 
their employees strive to meet those requirements and striving 
can contribute to taking shortcuts in these cardinal rules. 
Federal hours of service rules are nearly 100 years old and 
were last amended 35 years ago, but much has been learned that 
would assist in improving hours of service rules and management 
of the work force not only in the last 100 years but also in 
the last 35 and even in the last 10.
    Biological rhythms and what we know now about them should 
improve the management of the safety of critical crew members. 
The hours of service law doesn't deal with the issue at all. 
FRA's lack of regulatory authority over duty hours unique to 
FRA among all the safety regulatory agencies in the Department, 
precludes the FRA from making use of such scientific learning 
on this issue. Now that doesn't mean that the FRA and the DOT 
have not attempted to rectify that.
    Legislation was submitted four times in the last 15 years, 
and it is now in clearance again. In 1991, the legislation 
failed with opposition from both rail labor and rail 
management. In 1994, a bill was enacted but required labor-
management petition and failed because a joint petition was 
received but became moot. In 1998, the bill was attacked as 
being too prescriptive and was not enacted. In 1999, the 
reworked 1998 bill was never granted a hearing. The FRA has 
another bill in for clearance, but I must say that the issue 
you are holding this hearing on will require more than just 
legislation to address effectively.
    Hours of service raises objection from both unions, whose 
members want to maximize earnings, and rail companies, who must 
meet supply chain demands. But rules alone--no matter how well 
written or how well meaning--will not be sufficient to secure 
the base case of safe railroading. Voluntary efforts sponsored 
by the FRA, like the RSAC and the SACP, now RSOM, are helping 
to secure the kinds of joint labor-management-regulator 
discussions of fatigue management, technology use, and crew 
scheduling that can and are improving both our understanding of 
human factors and the things that can improve their 
performance. Continued research into things like close calls, 
ECP brakes, and PTC are also critical to reaching a base case 
of safe railroading.
    My written testimony and, I believe, the testimony of 
everyone here today will convince you that the most important 
element needed for safety is a human safety culture that starts 
with this Government, the executive and legislative and 
judicial, and extends through management and labor on down to 
the individual railroader getting the job done with complete 
support for his or her safety and security.
    Thank you.
    Mr. LaTourette. I thank you very much, Administrator 
Boardman.
    Mr. Chipkevich, welcome to you, and we look forward to 
hearing from you.
    Mr. Chipkevich. Thank you and good morning, Chairman 
LaTourette and members of the Subcommittee. Thank you for the 
opportunity to testify today.
    Since 2001, the National Transportation Safety Board has 
investigated 28 railroad and 3 rail transit accidents involving 
collisions and over-speed derailments. Most of these accidents 
occurred after train crews failed to comply with control 
signals, to follow operating rules in non-signaled territories, 
or to comply with other specific operating rules. Our accident 
investigations have identified human performance failures 
related to fatigue, medical conditions such as sleep apnea, use 
of cell phones, use of after arrival track warrants in non-
signaled territory, loss of situation awareness, and improperly 
positioned switches.
    Although the Safety Board has made numerous recommendations 
to address human performance issues, we have repeatedly 
concluded that technological solutions such as positive train 
control systems have great potential to reduce the number of 
serious train accidents by providing a safety redundant system 
to protect against human performance failures. As a 
consequence, positive train control has been on the Safety 
Board's list of most wanted transportation safety improvements 
for 16 years.
    Fatigue is a human performance safety issue that crosses 
all modes of transportation. The Safety Board most recently 
addressed this issue after a collision between two freight 
trains at Macdona, Texas. Train crew fatigue resulted in the 
failure of the engineer and conductor to appropriately respond 
to signals governing the movement of their train. Contributing 
to their fatigue was their failure to obtain sufficient 
restorative rest prior to reporting for duty because of their 
ineffective use of off-duty time and train crew scheduling 
practices which inverted their work/rest periods.
    Minimum rest periods do not take into account either 
rotating work schedules or accumulated hours spent working in 
limbo time. Limbo time is most often associated with a crew 
member's time to their final release point after expiration of 
their 12 hour service limit. Time spent waiting for 
transportation can be significant and lead to very long 
workdays. The Safety Board has recommended that the FRA require 
railroads to use scientifically-based principles when assigning 
work schedules for train crews, which consider factors that 
impact sleep needs to reduce the effects of fatigue and to 
establish requirements to limit limbo time.
    FRA certification requirements for locomotive engineers 
focus on specific vision and hearing acuity standards but do 
not provide guidance regarding medical conditions that should 
be considered in the course of an examination. The Safety Board 
has recommended that the FRA develop a standard medical 
examination form that can be used to determine the medical 
fitness of locomotive engineers and other employees in safety 
sensitive positions.
    After two freight trains collided near Clarendon, Texas, 
the Safety Board recommended that the FRA issue regulations to 
control the use of cell phones. At Clarendon, the engineer of 
one train had used his cell phone for two personal calls the 
morning of the accident, one call for 23 minutes and the second 
call for 10 minutes. The engineer was on the second call as he 
passed the location at which he should have stopped and waited 
for the arrival of another train.
    Non-signaled territory presents a unique problem for rail 
safety. There are no signals to warn trains as they approach 
each other, and the avoidance of collisions relies solely on 
dispatchers and train crews adhering to operating procedures. 
After several accidents, the Board has again recommended that 
the FRA prohibit the use of after-arrival track warrants for 
train movements in non-signaled territory not equipped with a 
positive train control system.
    Finally, one of the most serious accidents in recent years 
occurred in Graniteville, South Carolina. After a freight train 
encountered an improperly positioned switch, the train was 
diverted from the main line onto an industry track where it 
struck a parked train.
    Measures beyond additional operating rules, forms, or 
penalties are needed to prevent accidents such as the one in 
Graniteville. The Safety Board recommended that in non-signaled 
territory and in the absence of switch position indicator 
lights or other automated systems that provide crews with 
advanced notice of the position of switches, trains be operated 
at speeds that will allow them to safely stopped in advance of 
the misaligned switches.
    Mr. Chairman, this completes my testimony. I will be happy 
to answer any questions.
    Mr. LaTourette. Thank you very much, Mr. Chipkevich for 
your statement.
    Administrator Boardman, I would like to start with you 
where Mr. Chipkevich talked about this medical examination. I 
think it would be hard for me to imagine that the Federal 
Aviation Administration would not have medical examinations for 
the pilots that fly airplanes. I have a good friend back home 
who had a heart attack and he has to go through a pretty 
rigorous set of tests in order to have his pilot's license 
renewed.
    Can you tell us what the FRA's thinking is on medical 
examinations for people that drive locomotives?
    Mr. Boardman. The FRA has worked on and produced a report 
on medical conditions and standards for railroad employees and 
is working with the railroads at this point in time. The 
railroad industry itself, because it began being really self-
regulated, usually had a medical director on staff. Now in 
recent years, many of those folks are no longer employed, and 
we are working with the railroads and with the industry to make 
sure that those standards are improved. We do have a drug and 
alcohol program, which I know you are well aware of, and it was 
the first in the country to really have it.
    Mr. LaTourette. What about his observation about the 
engineer that was on the cell phone. Is the FRA dealing with 
the cell phone in the cab issue as well?
    Mr. Boardman. Well, we are looking at it as a part, and I 
don't have a specific answer to the cell phone. I know we are 
looking at a lot of the human factors and have had a lot of 
discussions. I will find out specifically what we have done 
about the cell phone and get back to you on that.
    [The information received follows:]

    [GRAPHIC] [TIFF OMITTED] T0662.001
    
    [GRAPHIC] [TIFF OMITTED] T0662.002
    
    Mr. LaTourette. OK, I appreciate that.
    We are really here, I think, to talk about the hours of 
service, and your statement pretty well laid out the attempts 
since 1991 to modernize the Hours of Service statute. All of 
them have died in some form or another here on Capitol Hill. I 
think I heard you say and I happen to agree that it appears 
that both the labor side and the business side have a vested 
interest in keeping things the way that they are, and that has 
led to the inability to change this statute that has been 
around since 1907.
    I just read in getting ready for the hearing, when this 
issue was addressed in 1998, the previous Chairman of this 
Subcommittee posed this question to NTSB back in 1998, and I 
would like to ask you what your answer is to this. Do you think 
that if the Congress were to offer a system of comprehensive 
anti-fatigue plans that were customized for various types of 
rail operations with these plans eventually superseding the 
current statute, or perhaps more importantly, Congress allowed 
both labor and management enough lead time to deal with the 
compensation and crew requirement issues in their next 
bargaining round, that would help break the deadlock that has 
so long prevailed. How do you feel about that?
    Mr. Boardman. I think it is very difficult. For example, 
that particular question, I think, summarizes all the reasons 
why the bills failed up here, and in particular that at times 
our plan was too prescriptive. I think 1998 was too 
prescriptive. We were looking for fatigue management plans from 
the railroads. Prior to that in 1991, we were actually going to 
repeal the hours of service law. So I think there were some 
leftover, probably, feelings or thinking at the time that those 
fatigue management plans might, in fact, just do that, and that 
probably got people riled up.
    I think the hours of service should be taken out of the 
railroads. As somebody who holds a Class A driver's license and 
a pilot's license, I understand and have made a living from 
driving trucks. When I did that, I wanted the maximum number of 
hours that I could possibly get in, and so I wanted to be 
called, regardless. I didn't much care at the time whether I 
had what the requisite number of hours were. I didn't even know 
what the hours of service law was. I knew I wanted to work. I 
think that is the difficulty we are in here.
    It is a legitimate concern that the unions have that their 
membership needs to and wants to gain the income that they feel 
they want to if they believe they can work.
    I think there have been a lot of experiments that have 
occurred with railroads that have tried to figure out how can 
we give regular rest periods for folks? In fact, I think there 
is one railroad, and it may be a Canadian railroad, that really 
looked at a way for people that are from an "away" terminal to 
let them knock off to rest. The problem there was that those 
employees didn't want to be stuck at that "away" terminal and 
not be reassigned at the right time to get back home again. So 
it is a very difficult issue.
    Mr. LaTourette. Sure, it is.
    I think my last question is, as you told us either at the 
last hearing or the hearing before and you reminded us again 
today, the human factor side has ticked up 1 percent. 
Basically, the data that we have looked at is that even though 
I know Mr. Hamberger when he talks will talk to us about the 
greatly improved safety record of the railroads and we all 
applaud that, I think if you look at one thing that has 
plateaued, it is certainly the human factor, at least from my 
perspective.
    We just had the full Committee mark up a pipeline bill a 
couple weeks ago, and there was some discussion about whether 
we impose hours of service for the people that sit in the 
terminals on pipelines. My own view is there are some people, 
based upon their medical condition and their health, who can 
work longer hours than other people. If you just look at hours 
of service, you really are not having a comprehensive fatigue 
plan for the railroad or for any industry, and I assume you 
agree with that and, Mr. Chipkevich, that you agree with that 
as well.
    Mr. Chipkevich. Yes, sir, there are multiple issues that 
need to be considered, not just the hours, the scheduling 
practices, the inverted schedules, things of that nature.
    Mr. LaTourette. Sure. Thank you very much.
    Mr. Barrow?
    Mr. Barrow. Mr. Boardman, I would like to begin with you. 
First off, I want to thank you for having your staff meet with 
us last week. I appreciate that very much.
    I understand from testimony we are going to hear later on 
today that data from just one of the four largest Class I 
railroads shows that in the first six months of this year alone 
for that one railroad alone, 224 crews worked in excess of 14 
hours every day, 103 crews worked in excess of 15 hours a day, 
46 crews worked in excess of 16 hours a day, and almost 20 
crews every week worked more than 20 hours long. Are you all 
aware of those kind of numbers?
    Mr. Boardman. I am not specifically aware of those, but it 
doesn't surprise me, when you add in the limbo time like you 
talked about earlier, that those kind of numbers exist.
    Mr. Barrow. Without moving into the trickier area of how we 
are going to change the Hours of Service Act and who is going 
to make the calls on that, what is the FRA doing to enforce the 
rules we have on the books?
    Mr. Boardman. I think one of the things that made it very 
difficult for us is that a person can work 12 hours a day and 
then there is limbo time beyond that. When the Supreme Court 
ruled that that limbo time was not considered work time, it 
fell outside the area of those 12 hours of work. We don't have 
the same authority that others have to make changes in that 
area. So we have to wait until a change in the hours of service 
law to get at it.
    Mr. Barrow. So basically you are saying the Supreme Court 
has tied your hands with its interpretation of the Hours of 
Service law.
    Mr. Boardman. Yes, sir.
    Mr. Barrow. Well, let me shift ground a little bit for a 
second. I want to address something to Mr. Chipkevich.
    You know someone once said that if you have the ability to 
think about something without thinking about the thing to which 
it relates, you have the quality of mind to be a good lawyer. I 
am not exactly sure that was a compliment as a member of that 
profession, but I want to talk about something to which this 
problem of hours of service relates and that is staffing levels 
in general.
    I gather, for example, that one of the human factors that 
contributed to the collision in Graniteville that caused a 
number of people to die just about the most ghastly death that 
you can experience was not fatigue but too few people trying to 
do too much work, working within compliance of the hours of 
service law, that switches were left in the wrong position 
because too few people having too much work to do had to knock 
off in order to comply with the act.
    That sort of brings to my mind an unintended consequence or 
at least an unintended effect of a basic reform like an hurs of 
service rule when you apply it to different staffing levels. It 
seems to me that an hours of service rule makes perfectly good 
sense as an approach to how to ration and allocate the work to 
be done when you have enough people to ration it amongst, but 
you have a real problem with something like an hours of service 
law if you have too few people doing the work to begin with. 
Not only do you have the problem of people working too hard and 
getting tired, you also have not enough time for the work force 
to do the many things that have to be done. Applying an hours 
of service type methodology to a work force where you have more 
than enough people doing the work means you just have to spread 
it out amongst the right number of people, the right number of 
chores for the right number of people.
    It is very problematic when you have too much work to do 
for the number of people you have. That problem can arise in 
either two contexts. Either there is not enough work out there 
to hire and you go out there and you can't buy it up because 
there is not enough of it, but you still have more than you can 
find people to do, or you have the problem of people trying to 
make too few people do to much work. We are actually clamping 
down on the manpower so much that you have so much to do that 
folks can't comply with the hours of service law and still get 
everything done.
    I know that was a factor in Graniteville. You didn't have 
people who were too sleepy. You had folks who had to knock off 
on time and just had to get off the job too soon, and that was 
one of the factors that contributed to leaving a switch open, 
and you had a track speed collision with a parked train on a 
siding. These were folks were trying to comply with the law. I 
know that is not the general direction we are going in, but 
that is a problem. If you have staffing levels that are 
inadequate, this whole approach is going to hurt you in other 
ways besides the most fundamental way of people working too 
long until they are dropping at the wheel.
    What is your concern about staffing levels? Are you all 
looking at that any? Is that an issue?
    Mr. Chipkevich. We certainly noted in the Macdona accident 
investigation that in the San Antonio area where there was a 
significant amount of business during the period of 2004 as 
well as problems with the number of crews available, that we 
identified 42 percent of the time in that particular area, 
crews were working greater than 12 hours and then some crews 
working certainly greater than 15 hours and some crews up to as 
much as 23 hours, considering the significant amount of limbo 
time that was added to their regular work time.
    Compounding that problem was with all that additional limbo 
time, then those crews were not available again for another 10 
hours or another period before they could be used again, which 
sort of exasperated the problem. That affected the scheduling 
practices of calling up crews earlier because other crews are 
not available because of limbo time and things of that nature.
    So, yes, sir, we have seen that as a problem.
    Mr. Barrow. Now going back to the subject I wanted to avoid 
in the beginning, I am just kind of interested in your 
assessment. How do you think we need to fix the Hours of 
Service Act? How do you think we go about doing that? Should 
Congress fix it legislatively and address the problems caused 
by the Supreme Court's interpretation of the act, or should it 
be addressed in the way it is with other Transportation 
Agencies by delegating rulemaking authority to the FRA? I want 
the Transportation Board's input on that in particular.
    Mr. Chipkevich. We have certainly supported the FRA going 
to the Congress to ask for changes in the legislation to give 
them some authority to require some changes in programs, 
fatigue management programs, to look at scheduling practices 
that affect crews being called.
    Mr. Barrow. You have supported in the past the idea of 
delegating the rulemaking authority to the FRA. Is that still 
your position?
    Mr. Chipkevich. Yes, sir, that has not changed.
    Mr. Barrow. How about you, Mr. Boardman? How do you think 
we ought to do it? Should Congress fix it in statute, or should 
Congress amend the statute to give the rulemaking authority to 
the FRA to fix the problem subject to Congress' monitoring and 
control?
    Mr. Boardman. I think that FRA could do the rulemaking if 
we were given the authority to do so.
    Mr. Barrow. Thank you.
    Mr. LaTourette. I thank the gentleman.
    Mr. Petri, do you have any questions? I know you just got 
here. OK, thank you very much.
    Well, gentlemen, thank you very much for your testimony. We 
appreciate not only your testimony but your answering our 
questions, and you go with our thanks. Thank you very much.
    Our second panel this morning is going to be comprised of 
multiple witnesses: Dr. Martin Moore-Ede, who is the Chief 
Executive Officer of Circadian Technologies, Inc.; Mr. James 
Stem, who is the Alternate National Legislative Director for 
the United Transportation Union; Mr. Edward Hamberger who, of 
course, is the President and Chief Executive Officer of the 
Association of American Railroads; Mr. John Tolman, who is the 
Vice President and National Legislative Representative for the 
Brotherhood of Locomotive Engineers and Trainmen; Mr. Richard 
Timmons, who is the President of the American Short Line and 
Regional Railroad Association; and Mr. W. Dan Pickett, who is 
the International President of the Brotherhood of Railroad 
Signalmen.
    I want to thank all of you for coming this morning. As with 
the previous panel, we appreciate your timely submission of 
your written testimony. We have had the chance to review it. If 
you would be so kind to summarize your testimony in five 
minutes, we would appreciate it very much.
    Doctor, we are glad you are here, and we look forward to 
hearing from you.

  TESTIMONY OF MARTIN MOORE-EDE, M.D., PH.D, CHIEF EXECUTIVE 
 OFFICER, CIRCADIAN TECHNOLOGIES, INC.; JAMES STEM, ALTERNATE 
  NATIONAL LEGISLATIVE DIRECTOR, UNITED TRANSPORTATION UNION; 
   EDWARD HAMBERGER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
    ASSOCIATION OF AMERICAN RAILROADS; JOHN P. TOLMAN, VICE 
PRESIDENT AND NATIONAL LEGISLATIVE REPRESENTATIVE, BROTHERHOOD 
   OF LOCOMOTIVE ENGINEERS AND TRAINMEN; RICHARD F. TIMMONS, 
     PRESIDENT, AMERICAN SHORT LINE AND REGIONAL RAILROAD 
     ASSOCIATION; W. DAN PICKETT, INTERNATIONAL PRESIDENT, 
               BROTHERHOOD OF RAILROAD SIGNALMEN

    Dr. Moore-Ede. Thank you, Mr. Chairman. I appreciate the 
invitation to address the Committee.
    Fatigue, as we all know, has been a safety hazard that has 
been recognized since the dawn of railroads, and indeed the 
railroads were the first transportation mode to put in rules 
and, in fact, the laws to do with hours of service. Other 
transportation modes followed quite some decades behind in some 
cases.
    Of course, what has happened is that the work that those in 
the research community, like myself, did in the 1970's and 
1980's demonstrated that the physiology of sleep and biological 
clocks and circadian rhythms was rather different than was 
envisaged by those who had written those original regulations 
and laws in the earliest part of the 20th Century. Indeed, the 
simple hourglass model of measuring the number of hours on duty 
and then number of hours of rest basically, fundamentally 
doesn't work. In fact, many other factors are rather more 
important than that in terms of determining whether an employee 
is going to be fatigued or not.
    Over the years since then, tools have evolved and have been 
applied in a wide variety of industries, in fact, across 
virtually every industry that runs 24/7. Having experienced and 
worked in many of these industries including the railroads, I 
think the railroads are to be commended as one of the most 
progressive in terms of developing fatigue management tools and 
training programs and sleep apnea screening processes and so 
forth and systematically working at this issue and putting them 
into place.
    The sobering fact, however, as has been mentioned earlier, 
is that when we look at the target which surely all these 
efforts should be addressing which is the number of human 
factors accidents corrected by the number of million train 
miles--so we are not just talking about aberrations based on 
the growth of the industry--that has been at a plateau since 
1985. If you look at the more focused data on mainline and 
siting data for human factors accidents per million train 
miles, that has been at a plateau since 1995 for the last 10 
years. Fatigue is still very much a factor, we all recognize 
that, and fatigue causes accidents. So for those particular 
reasons, it is not that the fatigue is not an issue.
    The real problem, I believe, is that we are locked in a 100 
year old paradigm of regulations and laws based on managing 
inputs rather than outputs. Indeed, if you look at any way of 
managing a business, you don't measure a business by the amount 
of raw materials it consumes. You measure it by the products 
that it produces and the bottom line results on its financial 
books.
    Fixing the hours of service, however, is really not the 
answer. In other words, you could not write rules that would 
work without them being overly complex, and I think anybody who 
contemplates rewriting or tweaking the hours of services rules 
and regulations and laws should look very carefully at what is 
happening with the FMCSA right now and the trucking hours of 
service regulations which are under multiple attacks and are 
being tossed out in the courts and rewritten and tossed out 
again. Indeed, that is an ongoing process because writing 
prescriptive rules is a method that really doesn't work.
    The solution, I believe, is to look at a new paradigm, and 
the paradigm that is actually pioneered into regulation by the 
Nuclear Regulatory Commission is called Risk-Informed 
Performance-Based Safety Management. What it means that you 
develop models which you determine that accurately predict risk 
and then you ask the industry to manage to reduce that risk, 
that measurable output risk, the risk being human factors 
accidents per million train miles, for example, as a target. 
This process of constantly feeding back as to whether any 
intervention is actually fixing that risk is the way you 
progressively learn and progressively improve.
    It now is the wholesale way of managing risk in the nuclear 
power industry, in all sorts of fire standards for Federal 
buildings, a whole number of different ways by using risk 
models. It is possible to build risk models now, and certainly 
the science and the technology to do that is radically 
improved. The insurance industry relies on predictive risk 
models now. It is 25 percent better than the best human 
adjuster in underwriting, for example. Over 50 percent of the 
Fortune 100 use predictive risk models in business 
intelligence, using the vast amounts of data to predict what, 
in fact, are the outcomes, the best of the bottom line, i.e., 
the output.
    We have actually taken the step and moved that into 
transportation in trucking. By building risk models which, 
first of all, model fatigue risk, we can demonstrate some very 
interesting rules, namely that it is only when you get to the 
extremes of fatigue risk that you get enormously, rapidly 
increasing levels of risk.
    If you mine those nuggets of where the risk is and fix 
those particular areas, you get major improvements in 
performance. You can get 50 percent reductions in accident 
rates and personal injury, 70 percent reductions in financial 
losses. It works best when you don't just deal with fatigue in 
your risk models, but you actually recognize that fatigue 
interplays with many other aspects of safety, and if you put 
them together, you can get a 25 percent lift in performance of 
the models by building comprehensive models of human error risk 
and then having individual managers use their discretion, their 
knowledge, their individual situations and their local 
conditions in order to address it.
    I think the time has come, Mr. Chairman, that we need to 
recognize hours of service regulation was the solution of the 
last century. It is 100 years old. In fact, the solution for 
the next century has to be predictive risk modeling. I don't 
think I am looking for wholesale abolition of hours of service 
or hours of service laws and regulations.
    In fact, I think steps that have already been laid in the 
railroad industry to move in the right direction by building 
all these tools and developing experience with fatigue 
management. With the cooperation and very much the partnership 
of the unions in this as well as the railroad management, all 
sorts of tools have been developed.
    I think the next step is to basically improve this process 
of risk managing to provide incentives to build risk models and 
then eventually as those become more and more effective, one 
has the ability to sort of wean the industry away from the 
hours of service laws.
    I thank you for your time and consideration.
    Mr. LaTourette. I thank you, Doctor, not only for your 
testimony this morning but for your very useful written 
testimony.
    Mr. Stem, welcome, and we look forward to hearing from you.
    Mr. Stem. Thank you, Mr. Chairman and Ranking Member 
Barrow. On behalf of the United Transportation Union, we 
appreciate the opportunity to appear today.
    I am going to focus my remarks today in summary of my 
written testimony on training and the significant effect that 
inadequate training has on safety. I am also going to discuss 
the effects of acute and cumulative fatigue on situational 
awareness of safety-critical employees. Also in our testimony 
today, we will discuss the responsibility of both employees and 
railroad supervisors to comply with Federal law, Federal 
regulations, and operating rules that deal with safety issues.
    I want to make the following major points in my testimony. 
Training of new employees working in safety-sensitive positions 
is inadequate and not focused on safe operations. New employees 
should not be allowed to work unsupervised until they 
accumulate at least one year's experience. Fatigue of safety-
sensitive employees is not addressed in any rail operational 
safety plan.
    We are asking Congress to take appropriate action to amend 
the Hours of Service Act to resolve this issue. Congress should 
act to restrict each tour of duty to 10 hours and no more, to 
also establish a cumulative total for covered service employees 
for each seven day period of time, and Federal law and Federal 
regulations apply to all railroad employees including railroad 
supervisors.
    We are pleased to report to you that UTU considers 
ourselves to be FRA's partner working together to improve 
safety in our rail industry. We appreciate the positive 
relationship that Administrator Boardman, Associate 
Administrator for Safety Jo Strang, and their staff have 
developed with both labor and management. We believe that FRA 
is on the right track and fully comprehends the complex safety 
issues confronting our industry today. We also have a strong 
opinion that Congressional intervention is now warranted to 
give FRA more resources and more authority to have a more 
immediate impact on the increasing numbers of train collisions 
and major accidents that continue to occur.
    Accidents caused by human factors account for about 38 
percent of total train accidents. This category of accidents, 
as you already heard this morning, is increasing. Inadequate 
training programs for new employees, their lack of practical on 
the job experience, and absence of familiarity with the work 
place physical environment, substandard recurrent training 
requirements for existing employees, and the unacceptable 
prevalence of fatigue throughout the rail industry are the 
causes of these accidents.
    We believe it is appropriate that we express our enthusiasm 
to the Committee this morning for the process that 
Administrator Boardman and FRA have established to address 
training issues. A working group consisting of representatives 
from the Brotherhood of Locomotive Engineers and Trainmen, UTU, 
FRA, all the railroads, and recognized training experts has 
been formed and will meet for the first time later today.
    We are very optimistic that this proactive working group 
can move quickly to find and implement solutions that will have 
an immediate positive effect on the training and qualifications 
of operating crew members. We salute both FRA and the AAR for 
their willingness to contribute their resources in this effort 
to make training in the rail industry a safety advantage 
instead of the most significant safety issue today.
    The rail industry will have more than 80,000 new employees 
in the next five years. The rail industry is also experiencing 
an unprecedented retention problem involving new employees. 
Based on reports from the field, new employees are resigning 
and leaving the industry because they are dissatisfied with the 
quality of training, they are uncertain of their skills and 
understanding of the work processes, and they are 
understandably uncomfortable with their level of 
responsibility. Exit interviews conducted with former new 
employees indicate that their training did not prepare them for 
service in what they believe is a dangerous work environment 
and they did not receive the opportunity to become accustomed 
to the realities of working a self-supervised position with 
irregular shift scheduling and uncertain rest day opportunity.
    On fatigue, unless a human being knows well in advance what 
time they must report to work, they cannot arrange to be rested 
and fit for duty. The railroad industry functions on a 24/7 
schedule with continuous operations from coast to coast. This 
is not an excuse for the current position of the railroads 
holding that their employees do not require advance knowledge 
of the time they must appear for their next assignment in order 
to manage their lives and obtain sufficient sleep before 
reporting for work.
    In summary, Mr. Chairman, UTU today is calling on Congress 
to act to amend the Hours of Service Act to permit only 10 
hours of service. This means that from the time an employee 
reports for service and is then released at the final terminal 
will not exceed 10 hours. If the Supreme Court offered an 
interpretation of language in the statute, then we obviously 
aren't going to argue with the Supreme Court, but we are here 
today, asking you to change that language. We thank you for the 
opportunity to appear.
    Mr. LaTourette. Mr. Stem, I thank you very much.
    Mr. Hamberger, welcome to you, and we look forward to 
hearing from you.
    Mr. Hamberger. Mr. Chairman, on behalf of the member of the 
Association of American Railroads, thank you for the 
opportunity to discuss issues surrounding rail safety, the 
Hours of Service Act, and fatigue in the rail industry.
    The railroad industry places extraordinary importance on 
safety, and our safety record bears that out. Since 1980, 
railroads reduced their overall train accident rate by 65 
percent and the rate of employee casualties by 79 percent. In 
2005, in fact, the employee casualty rate was the lowest in 
history. The railroads have lower employee injury rates than 
other modes of transportation and most other major industry 
groups. In addition, U.S. railroads have employee injury rates 
well below those of most major European railroads. Having said 
that, we certainly are not content to rest on our laurels.
    We are particularly concerned about accidents related to 
human factors which were responsible for the largest number of 
train accidents over the past five years. Although the overall 
accident rate involving human factors has remained fairly 
constant in recent years, most involve low speed yard 
accidents. In fact, the rate of human factors-caused accidents 
involving freight trains on main and siding tracks in 2005 was 
75 percent below the 1980 level and 46 percent below its level 
in 1990.
    Clearly, it is not in the best interest of railroads to 
have employees too tired to perform their duty safely, and that 
is why railroads have long partnered with their employees to 
gain a better understanding of fatigue-related issues and find 
effective, innovative solutions to them.
    I salute you, Mr. Chairman, for placing me between Mr. Stem 
and Mr. Tolman because it is only by working together with our 
unions that we can come up with effective solutions. The 
solutions to fatigue are inextricably linked to our collective 
bargaining agreements, as Mr. Boardman pointed out, and it is 
therefore necessary that we go forward to address that issue 
together.
    One lesson we have learned is that factors which can result 
in fatigue are multiple, complex, and frequently intertwined. 
Because of this, there is no single solution. Scientific 
research to date suggests that flexibility to tailor fatigue 
management efforts to address local circumstances is key to the 
success of these programs. Significant variations associated 
with local operations, local labor agreements, and other 
factors require customized measures. Consequently, as Dr. 
Moore-Ede pointed out, a one size fits all Government approach 
is unlikely to succeed as well as cooperative efforts tailored 
to the individual railroads.
    Combating fatigue is a shared responsibility. Employees 
need to provide an environment that allows the employee to 
obtain necessary rest during off duty hours, and employees must 
set aside time when off duty to obtain the rest they need.
    Mr. Barrow referred to an earlier NTSB report and 
questioned what the industry has done. I refer you again to Dr. 
Moore-Ede who indicates that we are in the forefront of 
industries in addressing fatigue management programs. A number 
of different approaches have indeed been developed. For 
example, napping is permitted for train crews under certain 
circumstances. Sleep apnea screening is also conducted to 
identify employees with sleeping disorders.
    Recognizing that some employees might be reluctant to come 
forward for treatment, management and labor jointly produced 
and circulated a statement saying that sleep disorder will be 
addressed in the same way as any other medical condition. Rail 
has provided improved lodging at away from home facilities 
including blackout curtains, white noise, and increased 
soundproofing. Railroads and unions have agreed in some cases 
to additional scheduling tools such as providing more 
predictable calling windows between shifts to provide an 
improved opportunity for rest.
    All AAR member railroads offer fatigue education programs 
for employees and their families, as Mr. Barrow suggested. The 
importance of education in this area cannot be overstated since 
the success of fatigue-related initiatives is highly dependent 
upon the actions of employees off duty. Railroads favor 
continued research on the subject and will continue to work 
with rail labor to find and implement new ways to combat 
fatigue. For example, we are cooperating with the FRA on a 
project to develop a fatigue model that could be used to 
improve crew scheduling. One railroad has already adopted such 
a model that has been in use in Australia.
    We are also developing new technology that offers promise 
to reduce the number of human factors accidents including those 
related to fatigue. For example, several major railroads are 
currently developing and testing train control systems that 
prevent accidents by automatically stopping trains before they 
exceed authority.
    Our commitment to safety is absolute, but again, combating 
fatigue is a shared responsibility. Railroads recognize they 
must provide their employees with sufficient opportunity to 
rest. For their part, employees must use a sufficient amount of 
the time made available to them for that rest.
    In sum, the industry recognizes the importance of 
continuing to focus on eliminating all human factors accidents 
including fatigue-related incidents. We will continue to work 
with the FRA and our unions to build on the progress we have 
made to date.
    Thank you, Mr. Chairman.
    Mr. LaTourette. Mr. Hamberger, thank you very much for your 
excellent written testimony and also your testimony this 
morning.
    Mr. Tolman, welcome to you, and we look forward to hearing 
from you.
    Mr. Tolman. Thank you, Mr. Chairman and members of the 
Subcommittee.
    My name is John Tolman. I am a Vice President of the 
Brotherhood of Locomotive Engineers and Trainmenm, Division of 
the Teamsters Rail Conference. The Brotherhood of Locomotive 
Engineers and Trainmen represents 33,000 members, and there are 
70,000 members in the Teamsters Rail Conference.
    My written testimony addresses three major subjects: 
technology, training, and fatigue.
    The subject I would like to discuss today is fatigue and 
how the railroad's manipulation of the Hours of Service Act and 
the FRA regulation adds to the problem. Even worse, the 
railroads are in denial that they are part of the solution.
    For a few minutes, I would like to focus on one aspect of 
fatigue, and that is the widespread abuse of limbo time and 
leaving crews on their trains for outrageous lengths of time. 
Operating employees are prohibited from working more than 12 
hours in any 24 hour period with limited exceptions. If a train 
cannot reach its destination with 12 hours, the crew must cease 
all work prior to expiration of the 12th hour, at which point 
they are considered outlawed. Currently, time spent in deadhead 
transportation from duty assignment to the place of final 
release is neither time on duty nor off duty, meaning the 
outlawed crew is in limbo status with respect to the hours of 
service while deadheading from their stop point to the final 
off duty point.
    The statute is clear concerning the time consumed during 
the actual deadhead but is silent about the time waiting for 
transportation to arrive. Although a crew's hours of service 
status is in limbo, its obligation under the railroad operating 
rules are not. Crews are often left on trains until their 
relief has arrived. The crews must obey the operating rules 
requiring that they remain alert and observant and they must 
take action to protect the train against unanticipated 
mechanical problems or vandalism.
    By the mid-1990's, a dispute over how to classify the time 
an outlawed crew spends waiting for deadhead transportation to 
arrive had reached the courts. The Supreme Court resolved this 
conflict in 1996 in holding that Congress had intended that the 
time spent waiting for deadhead transportation from a duty site 
should be limbo time. The ensuing decade has seen both a number 
of crews stranded, waiting for transportation and the length of 
limbo time increase. A November 2001 FRA opinion letter stated 
that requiring a crew to attend to its train up after 12 hours 
is limbo time if the crew is permitted to leave the train when 
its relief arrives. After the issuance of this opinion letter, 
the incidents of limbo time skyrocketed.
    Over the past nine months, the BLET has received thousands 
upon thousands of reports of excessive work hours which we are 
assembling into a usable form. The preliminary information from 
these reports is shocking. Data prepared by one of the four 
largest Class I railroads shows that in 2002, the average 
number of about 90 crews a day had duty hours longer than 14 
hours and 33 had tours of duty over 15 hours. Last year, the 
number of crews exceeding 14 hours had more than doubled to 
over 218 per day, and the average number of crews exceeding 15 
hours had more than tripled to 105 per day.
    Things are no better this year as Ranking Member Barrows 
referred to. The number of crews are almost the same with a 
slight increase in the first six months of 2006. One point I 
would like to make is almost 20 crews every week for the first 
six months of this year had worked a tour of duty more than 20 
hours long. That is 12 hours of work followed by 8 hours of 
limbo work.
    Three weeks ago, the NTSB determined the 2004 Macdona, 
Texas, collision and toxic chlorine release in which three 
people were fatally injured was caused by a fatigued crew. The 
crew was criticized for not obtaining sufficient rest prior to 
reporting for duty, and UP was criticized for crew scheduling 
practices that inverted work/rest patterns.
    Last Thursday, the NTSB issued a safety recommendation 
urging the FRA to establish requirements that require train 
crew member limbo time to address fatigue.
    In 2002, the Collision Analysis Work Group reviewed 65 
accidents. The group found that fatigue was a factor or a 
contributing factor in 30 percent of the accidents. Given the 
1996 Supreme Court ruling as interpreted by the FRA, we are 
unsure whether the FRA can address this recommendation via 
regulation alone. Indeed, it may develop that the only solution 
to the limbo time crisis is legislative. In either case, the 
elimination of abusive limbo time is one fatigue-fighting 
option to implement today, and we fully support that effort.
    Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you very much, Mr. Tolman.
    Mr. Timmons, welcome to you, and we look forward to hearing 
from you.
    Mr. Timmons. Thank you, Mr. Chairman, and good morning to 
you and Committee members. I appreciate the opportunity to 
appear this morning on behalf of the American Short Line and 
Regional Railroad Association.
    As many of you know, nationwide there are over 500 short 
line railroads operating nearly 50,000 miles of track and 
employing over 23,000 individuals.
    As I will discuss in a moment, there are differences in the 
operating environments of the short line railroads and their 
Class I counterparts, and those differences make this somewhat 
easier for us to discuss in the short line industry. 
Notwithstanding those differences, I want to emphasizes our 
support for many of the points made by Mr. Hamberger in his 
remarks. As I have said previously in each of these hearings, 
the efficiency, competitiveness, and profitability of the small 
railroad industry is directly related to the efficiency and 
competitiveness of our Class I connections.
    Mr. Hamberger's observations on fatigue and hours of 
service are very important, and I hope the Committee will take 
those observations to heart.
    The tempo of short line railroading is different than that 
of the Class Is and that difference affects how we think about 
the issues you are considering today. Short lines are generally 
operating in a much smaller geographic area than the Class I 
railroads. These shorter distances combined with slower speeds 
and smaller consists produce more predictable work schedules 
and more routine patterns of interchange and delivery. We are 
better able to anticipate workloads, design train and car trip 
plans, regularize train crew schedules, plan for maintenance 
crew operations, and right of way equipment inspection 
programs.
    This more routine and predictable tempo has contributed to 
what we believe is an impressive and improving safety record as 
documented by the FRA's safety statistics. In 1990, the Class 
II and Class III industry experienced 651 human factors 
accidents. Last year, we had 242 and to date this year, we have 
had 63. Any accident, of course, is one too many and tireless 
effort is required to continue to improve our record, but the 
trend line for small railroads has been headed in the right 
direction for some years now.
    Our improving record is also evidenced by another set of 
numbers used by short lines. Class II and Class III railroads 
rely on a severity index to assess our safety performance. We 
believe this more accurately measures our progress and allows 
us to target resources in areas where they can do the most to 
alleviate the worst. For example, 10 years ago, the injuries 
among short line railroads totaled 1,426. In 2005, the serious 
injuries totaled 25, and the non-severe were 746.
    While I believe the nature of our operations contributes to 
our favorable safety record, there are two other factors that 
have contributed. First, we take safety training very 
seriously, and we at the association are constantly looking for 
ways to enhance existing training and to encourage individual 
short lines to do more of it. In January of 2005, we entered 
into a new partnership with the National Academy of Railway 
Sciences to facilitate short line use of this outstanding 
training facility. Short line attendance has increased steadily 
since the new partnership was announced.
    Second, the short lines are making every effort to improve 
our track. As you know, the short line industry inherited the 
worst of the Nation's track infrastructure when we began taking 
over these properties in the 1980's. Today short lines plow 
almost a third of their annual revenues back into the 
infrastructure improvement programs that they all have. This is 
more than any other industry in the Country. Beginning in 2005, 
we have been able to increase that investment thanks to the new 
rehabilitation tax credit that so many of you were helpful in 
securing. AS our track improves, our safety record will 
improve, and we think the statistics I mentioned bear that out.
    I am encouraged by our improving record, and I am 
optimistic that continued attention to safety training and 
track upgrades will help us to continue that improvement well 
into the future, but there are other factors that we must focus 
on to continuously avoid accidents. I will not dwell on these 
in any detail but believe that it is important to highlight 
them very briefly.
    Drug and alcohol testing for the short lines must be 
steadily pursued with serious determination. This is an ongoing 
human factors aspect of all work forces today, and we take it 
very seriously.
    Failure to comply with established rules and procedures is 
a critical human factor dimension that requires constant 
attention. To counter this compels consistent and tireless 
emphasis and correction by supervisors. Taking shortcuts and 
ignoring established rules must be corrected through 
observation, counseling, and retraining.
    Ensuring adequate supervisory oversight is the most 
challenging and in some respects, the most important human 
factors consideration for the small railroad industry. Not 
checking, not validating, not compelling compliance, and not 
taking appropriate corrective actions all lead to bad habits, 
potential accidents, and poorly managed railroads. To counter 
this requires vigilance by supervisors at every level. When 
problems are identified, they must be corrected immediately.
    Recently, the ASLRRA has initiated the SAVE program. The 
Safety and Validation Evaluation inspection places our most 
experienced operating staff members on the short line system 
for several days to assess and educate short line railroaders 
at their work sites. While a small step, the initial returns 
are significantly improving operating procedures and compliance 
with rules.
    Short line operations are different than those of Class I 
railroads, and those differences have made our job somewhat 
easier when it comes to the human factors issues. Nonetheless, 
we are far from immune from human errors and such issues as 
fatigue. It is for this reason that we introduced the fatigue 
program for Class II and Class III railroads in March of 1999. 
We are proud that our numbers are improving, but of course we 
strive to do better.
    I thank you, Mr. Chairman, for your attention and would be 
pleased to answer any questions that you may have at the 
appropriate time. Thank you, sir.
    Mr. LaTourette. Thank you very much, Mr. Timmons.
    Last but certainly not least, Mr. Pickett, thank you for 
coming, and we look forward to hearing from you.
    Mr. Pickett. Thank you, Mr. Chairman and members of the 
Committee.
    Railroad signalmen install, maintain, and repair the signal 
systems that railroads utilize to direct train movement. 
Signalmen also install and maintain the grade crossing signal 
systems used at highway-railroad intersections.
    Before discussing the role that human factors play in rail 
safety, it should be noted that the BRS believes that many of 
the accidents and fatalities that are attributed to human 
factors are actually due to other factors. As you have heard 
today, over one-third of all rail accidents are attributed to 
human factors. Railroads often list the cause of an accident to 
human factors. However, when the facts are reviewed, the facts 
show that it was not human factors after all.
    For example, signalmen currently work under an hours of 
service law that was first implemented for railroad signalmen 
in 1976. It was written as a 12 hour maximum service law during 
a 24 hour period, and an exception was made that in the case of 
an emergency, then an signal employee could work up to 4 
additional hours in a 24 hour period.
    The law worked well for years, and railroads would limit 
signal workers to 12 hours of work in a 24 hour period. Now, 
however, signal employees have seen the law become a 16 hour 
law. Many railroads have policies that state that any signal 
problem is an emergency.
    Railroads tend to focus on the financial bottom line. As 
such, the railroads have allowed staffing levels to fall below 
the minimum needed to perform basic safety functions. Railroad 
signalmen levels have shrunk over the last decade. Railroads 
are not keeping up with the basic attrition, let alone 
preparing for the increase in retirements that are going to 
occur over the next 10 years.
    While the railroads are reducing manpower levels, they are 
also trying to increase the use of contractors to perform 
signal work. Railroads reduce the staffing levels to a point 
where the remaining signal employees cannot perform all of the 
work required, and then the come to us, crying that they need 
to contract out more signal work.
    Some people may argue, incorrectly I feel, that contracting 
out is a solution for the railroads. In reality, it will only 
cause more accidents, collisions, and deaths. What the 
railroads do not mention when they plead that they need more 
contracting out is that contractors are not properly trained 
and are not covered by the Hours of Service Act and many other 
laws and regulations governing railroad workers.
    The answer to reducing or eliminating human factors-caused 
signal accidents is not to hire contractors, but it is to 
prepare for the future by hiring and properly training signal 
employees to ensure the signal systems are safe. Training and 
education is a key preventive measure that needs to be 
considered. Rail labor considers it equally important to 
provide advanced training to improve the skills of the 
professional men and women who install and maintain safety 
systems for the rail industry. Training can and will improve 
safety.
    Under an FRA initiative, the Brotherhood of Railroad 
Signalmen recently participated in a study entitled: Work 
Schedules and Sleep Patterns for Railroad Signalmen. The study 
collected two weeks of data from a random sample of actively 
working U.S. railroad signalmen. Most of the fatigue comments 
were related to being on call 24 hours a day, 7 days a week, 
travel, unscheduled work, and poor sleep. Also mentioned during 
the study were the difficulties of achieving meaningful sleep 
when sleeping away from home. A major disrupter of sleep was 
the unscheduled or emergency work situations that arise during 
the night.
    There is little question that more must be done to reduce 
human factors accidents in the rail industry. The rail 
industry, the FRA, and rail labor must continue to explore the 
true cause of accidents and stop taking the easy route of 
blaming the individuals. Humans do make mistakes. That is 
indeed the essence of being human.
    However, when a signal employee makes a mistake while 
working at a railroad crossing or on train signals, it is not 
always his fault. When you examine events leading up to the 
mistake, we often find that there were contributing factors 
that were ignored and not addressed. When conditions are such 
that it is just a matter of time that a signal employee will 
fail, to blame the individual for the mistake does not get to 
the real reason as to why an accident happened, and it 
definitely will not get to the cause in order to prevent the 
mistake from ever happening again.
    There is much to accomplish to make the Nation's railroads 
safer. I hope we can work together to see that the improved 
safety and practices become a reality.
    On behalf of all rail labor, I thank you for the 
opportunity to testify before this Committee.
    Mr. LaTourette. Mr. Pickett, thank you and thank you all 
for your testimony and your coming here today.
    Doctor, I think I would like to start with you. There is 
some at least anecdotal evidence that fatigue is a greater 
factor following a day off or for someone returning from 
vacation. When you were talking about the application of your 
Risk-Informed Performance-Based Safety Management to the 
trucking industry, I noticed in your testimony, you discuss 
telematics to track the time off that the truck drivers have.
    In the risk management type program that you are 
describing, how do you ensure that somebody who has time off is 
really resting as opposed to doing things that actually add to 
the fatigue? Is there a medical test that can determine whether 
or not a person is actually fatigued, despite the fact that he 
or she may have had time off?
    Dr. Moore-Ede. Well, first of all, of course, what people 
do in their own time is hard to control. The first part of the 
answer is in predictive risk modeling, one can, in fact, have 
pretty good models on how people on average behave, and you can 
get a lot of safety improvement by using that.
    In other words, we can predict that an individual coming 
off a shift at 11:00 a.m., for example, is unlikely to sleep 
more than four or four and a half hours, just because of the 
way the body clock works, whereas an individual coming off at 
shift at 11:00 at night has a much greater probability of 
sleeping seven or eight hours, but whether they actually do it 
or not, of course, is always an issue and that is hard to 
manage.
    The second part of your question relates to technologies 
that are emerging about fitness for duty testing. The fitness 
for duty concept, of course, is being most useful when you are 
talking about drug and alcohol testing because, in fact, the 
deterioration, the level of impairment improves with time. The 
problem with fatigue testing is the level of impairment 
increases with time. You can be perfectly fit at the start of a 
duty period, but six or eight hours later, you might be unfit 
for duty. So that technology is a bit more limited.
    As I say, considerable strides can be made in predictive 
modeling by building proper factors that can estimate what the 
average employee is able to obtain in terms of rest and 
obviously by reinforcing that by training programs of the sort 
that are quite widely used now in the industry.
    Mr. LaTourette. You talked about the application of the 
Risk-Informed Performance-Based Safety Management to the 
Nuclear Regulatory Commission and also the trucking industry. 
Turning to the nuclear industry first, have these strategies 
been in place long enough to have measurable results relative 
to performance and safety improvement or lack thereof?
    Dr. Moore-Ede. I think there have been very good reviews 
back in terms of the flexibility that has enabled local 
managers to respond to it. I don't have a very good recent 
update and exact numbers on that.
    I do have much more relevant data, direct data from the 
trucking applications where we have seen very significant 
improvements, and we have monitored this now over multiple 
years. So we have actually had about four or five years of 
experience now of operating trucking fleets where you are 
continuously feeding back the risk of every employee.
    In fact, we are now at a stage where we can do predictive 
risk of who should you call in next, who will in fact be likely 
to be impaired when called in now, and who is likely not to be 
impaired. Certainly, these tools have quite substantially 
reduced accident rates and risks and costs, a 50 percent to 70 
percent reduction in costs and so forth. We certainly have the 
track record of understanding that Risk-Informed Performance-
Based safety processes do work.
    Mr. LaTourette. That 4 to 5 years and the 50 to 70 percent 
reduction in accidents, is that included some place in your 
testimony?
    Dr. Moore-Ede. Yes, it is in the testimony. It also has 
been reported in various scientific meetings including meetings 
sponsored by the Department of Transportation, and recently, it 
certainly has been reported as scientific results.
    Mr. LaTourette. I know you were in the room when 
Administrator Boardman talked about the fact, and I think you 
talked about this hours of service thing as sort of being an 
hourglass, a type of measurement, and the fact that there have 
been attempts to change this for the last 15 years since 1991.
    Based upon your research and understanding, are the things 
that you have applied to the trucking industry and the nuclear 
industry, things that will require the Congress to make changes 
in the hours of service statute, or do you think that they 
could be implemented by the industry?
    Dr. Moore-Ede. Well, the first stage is, as I say, I 
wouldn't throw away the safety net of the Hours of Service Act 
instantly. However, I think we are not going to get away from 
this plateau, and I think we can look at the improvements that 
were quite dramatic 20 odd years ago, but really when you get 
to a plateau like that, you have got to change the game and 
changing the game means not just saying, well, this is just too 
difficult to do. There are all the collective bargaining 
agreements. We have got the regulations. We can't do anything.
    Instead, it is to actually create an environment where, in 
fact, there are rewards as it were for those pioneer and move 
in safety-based management. One model of that, for example, is 
in the Australian trucking industry where much more flexible 
business arrangements are allowed for companies who put fatigue 
management plans and processes of managing that risk and can 
demonstrate improved ways of doing it.
    So, basically, I think the strategy there is to say if a 
railroad were to come to you and demonstrate that predictive 
modeling was in place, then there will be certain ways that it 
could deal with such issues such as the limbo problem. I mean 
the limbo problem is perfectly, directly modelable as a risk, 
and we could actually figure out where, in fact, the risk 
boundaries are rather than dealing with an issue where quite 
frankly it is very hard to correlate the data to know where the 
right balance is. I think that is just scientifically 
determinable, and as I say, the predictive risk models are 
exactly the way to look at how you manage that sort of issue.
    Mr. LaTourette. Thank you very much.
    It is my intention to do a couple of rounds.
    Ms. Johnson?
    Ms. Johnson. Thank you very much.
    Pilots with airlines are allowed to fly so many hours and 
they must take off so many, and truck drivers are pretty much 
the same way. It seems to me that the people who have no rest 
requirement are more likely to have these accidents. Has there 
been an effort to give attention to that and what is the 
outcome, Mr. Hamberger?
    Mr. Hamberger. Good morning, Congresswoman Johnson. Thank 
you.
    Indeed, there has been an effort, and I would ask the 
permission of the Committee to insert for the record a 
compendium that we are producing. We hoped to have it ready 
today, but it will be in a couple of days. It lists a wide 
array of approaches that the industry has taken. My testimony 
mentions several of them, again, napping policies, checking for 
apnea sleep disorders, arranging for longer periods of time 
off. The industry has moved in many carriers to a 10 hour 
minimum time off after a tour of duty.
    We are working on models, as Dr. Moore-Ede talked, both at 
the FRA and individual companies in trying to assess where the 
risks are and working with the unions, trying to figure out 
appropriate approaches at the local crew district level as 
well.
    Ms. Johnson. I apologize for not being here earlier. Is 
there some type of historical document that determines the 
condition or the hours after there is an accident?
    Mr. Hamberger. The hours worked by each employee would be 
maintained by the company, yes.
    Ms. Johnson. Are the accidents at a higher rate when there 
are people who have not rested?
    Mr. Hamberger. I don't have a specific answer for you on 
that. I know that there are studies out there, some of which 
were indicate that and others which are inconclusive. So some 
studies would indicate that a greater risk would be at 2:00 in 
the morning. Other studies indicate that there is a higher risk 
factor at 9:00 in the morning. But I will be glad to get you 
some data for that on the record.
    Ms. Johnson. When someone does have a sleep disorder and 
admits to it, what actions are taken?
    Mr. Hamberger. Well, if they come forward, it is treated 
like any other medical condition. They are offered treatment 
for it, and if it cannot be corrected, it would end up being a 
cause for a disability.
    Ms. Johnson. The contractor employees, there is hardly any 
way, I guess, to determine how many hours they have been off 
since they just come in as required.
    Mr. Hamberger. The contractors, of course, are not our 
employees. So it is impossible for us to determine if they were 
at a different job site the day before. That is correct.
    Ms. Johnson. Any comparison of accidents between the 
contract employees and regular full time employees?
    Mr. Hamberger. I am unaware of any. Let me check on that 
and get back to you for the record.
    Ms. Johnson. Anybody else in here aware of any difference?
    Mr. Pickett. We haven't done a study on the difference in 
the contracting. We have stated that there are times that the 
people who are there because they are not under the hours of 
service, they continually work.
    The problem arises after they leave. Then our people are 
the ones. The rail signalmen, then at that time, becomes the 
one who is having to correct the problem, hopefully finds the 
problem if they did leave something that wasn't set properly 
before something drastic happens. The problem is there. It is 
just something that we have never run a study on it, no.
    Ms. Johnson. Thank you.
    Mr. Stem. Congresswoman Johnson, may I comment on that 
also?
    Ms. Johnson. Yes.
    Mr. Stem. In answer to your previous question, one of the 
main sources of data that applies to the industry today was an 
FRA sponsored working group, the collision analysis working 
group. We submitted a copy of this report with our testimony. 
That study, in which labor, management, and the FRA 
participated equally, shows that about 30 percent of main line 
collisions have a major contributing factor of fatigue, and the 
main issue involved there is not just work schedules, but it is 
lack of notification of a reporting time.
    What you are talking about is a group of people who are 
working 70 or 80 hours a week. They get off work at 10:00 in 
the morning and have no clue what time they will be expected to 
report for work again. It could be eight hours. It could be 28 
hours. That is the issue. That is the main issue.
    Ms. Johnson. Thank you very much. My time is up.
    Mr. Hamberger. If I may, Mr. Chairman, I am asking 
unanimous consent to put stuff in the record. DAR did not 
endorse the report to which Mr. Stem referred, and we do have a 
critique of the statistical analysis in there which I would ask 
be included in the record as well.
    Mr. LaTourette. We would be glad to receive it.
    Ms. Schwartz, do you have any questions?
    Ms. Schwartz. Thank you. If I may, I appreciate the 
opportunity to participate.
    I am sorry, I did not hear the initial testimony but 
following up on some of the questions, one of the reasons that 
I am here is because there was recently a rail accident in my 
District, a regional rail accident. It just happened. So it 
will be months before we actually see the report, and the 
reason there is already reaction that technology could have 
helped in preventing that accident. Again, we don't know 
exactly what happened. So I am not sure how that conclusion has 
already been made.
    My question really has to do with, my guess is that there 
would be some combination of technology and the talents and 
training of the rail personnel and their ability to function, 
both in response to the technology and also their own 
alertness. Fatigue has been a big issue that has been talked 
about a good bit.
    Could you just speak to the training that personnel gets 
now in preparing for their own fatigue, their own difficulty in 
managing the time? Secondly, could you speak to the 
relationship between the new technology and the training that 
personnel would get in the use of new technology and how that 
would assist them in preventing accidents?
    I don't know if you are aware of the one that happened in 
my District. It was a regional rail. There were injuries, 
fortunately no deaths, but it was in a very suburban area where 
two trains actually hit each other. So it is obviously a 
concern. Fortunately, it doesn't happen too often, but when it 
does, it is a huge concern especially in sort of a neighborhood 
setting like that. The railway is going through really a very 
local suburban area, and it was quite distressing to many of my 
constituents that such a thing would happen in this day and 
age.
    Mr. Hamberger. If I could take a first shot at that, 
Congresswoman Schwartz, thank you.
    With respect to the education, each of the AAR members has 
very comprehensive fatigue training information, both for 
employees and their families. It is very important that they 
understand the role that fatigue plays and the role that they 
play in combating fatigue. Working with the unions, I believe 
we are putting together a web site which will be available to 
each employee which will have training and detailed information 
on what they should be looking for and how they should be 
proceeding with their time off.
    With respect to the technology, there is a meeting this 
afternoon, working on some of the technology issues. There is a 
remote control operating in the train yards for which there is 
a special training proceeding that I don't believe had anything 
to do with your accident.
    The new technology that is being developed by the industry 
is train control technology which would prohibit a train from 
exceeding its authority. What that means is in the case of a 
truck on a highway, for example, it would not be allowed to run 
the red light. So if the engineer did not begin to slow the 
train down before the computer calculated that it would exceed 
its authority, that is, go past the red light up the track, it 
will throw it into a penalty application, that is to say it 
will stop it before it goes past where it should, and therefore 
would avoid the collisions that you are referring to, if I 
understand what may have happened up there.
    Ms. Schwartz. Mr. Stem, I don't know if you want to add 
anything to that.
    Mr. Stem. Yes, ma'am, I would like to have an opportunity.
    The training that you are talking about is operational 
training. Fatigue management training is virtually non-existent 
in the rail industry.
    The web site opportunity that Mr. Hamberger discussed in 
his comments to you, I am not aware that our union or other 
unions are willing to participate in that because it does not 
deal with the core problem. The core problem is operational 
training. There are a multitude of reasons behind an accident 
occurring, one of which would be fatigue, but the initial level 
of training, the recurrent training of the existing employees, 
the discipline that a well trained employee exercises in the 
performance of his duties, all of those are major issues.
    As far as train control technology, the United 
Transportation Union fully supports the development of that 
technology and, unfortunately, it is our opinion that without 
some Congressional intervention with a major source of funding, 
we are decades away from implementation of that technology in 
the industry.
    Mr. Timmons. If I may, let me make a comment about your 
concerns about the accident in your District. I am interested 
primarily in Class II and Class III railroads, small railroads 
and regional railroads.
    Let me make a distinction between the Class Is, the Class 
IIs and the Class IIIs in terms of training and the fatigue 
issue. The fatigue issue for the small railroads is not the 
same as it is for the larger railroads. Our general area of 
operations is smaller, slower trains, smaller consists, and 
what all that does is generates a very consistent and 
predictable pattern of work day schedules. In other words, when 
a small railroader goes to work, he knows what time he is going 
to start generally and what time he is going to get off the 
job, and he knows that day in and day out.
    The predicament of hours of service that the Class Is have 
been struggling with and that most of our discussion this 
morning has been related to is not the same for the small 
railroads. So we don't run into the fatigue issue to the same 
degree that the big guys do.
    I would also say that from a training standpoint, all of 
these railroad engineers go through a very, very extensive 
training program and then must go through certification 
programs. They go through physical recertification at the three 
year point. If they are not on the job for 30 days, they must 
have a back to work physical. So from a medical standpoint, 
although there are no good railroad medical standards for 
railroad hours of service employees, there are medical 
procedures that they go through to make sure they are 
reasonably healthy when they come back on the job.
    This issue of fatigue is very, very complex, as I am sure 
you are aware, but for the small railroads, the predicament is 
just not the same.
    Ms. Schwartz. I appreciate that. Again, we don't have yet 
information about what caused this crash. So I don't want in 
any way to jump ahead here. There was some discussion in 
today's paper in Philadelphia that, in fact, the underfunding 
of the regional rail system in the Philadelphia area and the 
fact that there has been such slow capital improvements, the 
new equipment. I am not talking about new technologies now, 
just keeping up on the standard equipment plays a role 
potentially as well. They talked about the delays in getting 
the upgrades that are needed on the rails and on the cars 
themselves and whether that has played a role. They are 
questioning that. Obviously, we will know more as we see the 
details about this.
    Certainly, I think on this Committee we have been concerned 
about the lack of funding for the major rails, but there is the 
regional rail service that I know many of my constituents rely 
on every day to get back and forth to work. As someone who 
would like to encourage use of public transit and would like to 
see more use of rail service, not making that kind of 
investment in equipment is a concern. We don't know whether 
this, in fact, was not about new technologies, not about 
fatigue but really just a breakdown of old equipment. So that 
is potentially a factor as well, that I don't want to dismiss.
    Estimates to do some of the upgrades even on the cab 
signals could be 8 to 10 years. I am just talking about the 
regional rail system in my District. So that is a really long 
time for us to be dealing with virtually antiquated equipment, 
I believe. It is maybe a topic for another given day, but it 
certainly has something to do with the safety for our workers 
and our passengers on both regional and major rail.
    Thank you.
    Mr. LaTourette. Thank you.
    Mr. Tolman, do you have something you wanted to say?
    Mr. Tolman. Yes, thank you, Mr. Chairman.
    I would just like to comment on two things, training and 
fatigue. You know there has been a lot of discussion, number 
one, about fatigue and whether we should change the hours of 
service. I think we are putting the cart before the horse on 
this. I think you need to look at the fatigue abatement issues 
that we can implement, and one, limbo time, needs to be 
addressed. Years ago, when limbo time was not in force, 
basically you could work 12 hours. You were relieved and 
brought to your resting place immediately. That is what we need 
to go back to.
    We need to go back to look at where there are opportunities 
where employees can work five days on and two days off. We need 
to provide employees the opportunity for employee empowerment. 
If you are tired and you don't feel as though you can go to 
work, you can't be held accountable. You can't be held under 
the availability policy under the railroad industry. We need to 
address those issues.
    There are a million tools in the toolbox. We need to 
address those tools first and then look at the hours of 
service. As the Doctor said, we need to change the game.
    I don't think, with all due respect to my colleagues here, 
all of us work with the NTSB on a major rail accident, and that 
one was a regional. We didn't work on that particular accident. 
However, our concerns are your concerns, and the public's 
concerns. Try to find out what happened in the accident, 
address it, work together, come to a conclusion, and correct 
it. However, sometimes the corporate profit gets before 
addressing some of the issues.
    I don't think the fatigue issue will be resolved unless 
Congress gets involved in it personally.
    As far as training is concerned, years ago, training 
programs were superb. You had enough employees in the industry 
that you could provide a prolonged amount of time for an 
individual to be out there whether he is operating an engine or 
as a conductor or as a trainman. I think that needs to be 
addressed. Training needs to be constantly looked at, 
constantly observed. There should be mandated oversight in 
training to make sure there are enough qualified people in the 
industry as well as enough qualified people to support people 
that need a little bit more training.
    Thank you, Mr. Chairman.
    Mr. LaTourette. Thank you very much, Mr. Tolman. As I 
indicated, we will have one more round of questions, and I 
don't think I will take five minutes.
    One thing that I wanted to ask the folks from labor and 
also you, Mr. Hamberger, is about lot of the collective 
bargaining agreements in the past. If you look at Dr. Moore-
Ede's testimony, he has a lot of different factors in his risk-
based approach, but clearly hours of service is just one thing 
to look at. There are things like noise and vibration and 
weather conditions and everything else. A lot of collective 
bargaining agreements have mileage rather than hours of 
service.
    Could you all tell us why we went away from mileage in 
terms of what the rail and labor agreed to and now concentrate 
so heavily on Hours of Service? Could anybody share their 
thoughts with me?
    Mr. Stem?
    Mr. Stem. Mr. Chairman, I welcome the opportunity to offer 
an answer to that question.
    The mileage regulations that you discussed are still in the 
agreement. They have a collective bargaining agreement with 
their employees that says that each employee will be expected 
to work X amount of miles per month. They have totally abused 
that. They have effectively eliminated that and in fairness to 
the industry, the employees themselves were complicit in that. 
To the point that they have maximized their earnings, it was 
all about money.
    As far as Congressional action is concerned, there are two 
minor changes that the industry could make that would eliminate 
this debate. Number one, a 12 hour call giving a human being 12 
hours notice that I am expecting you--it is now 11:40 a.m.; you 
are on duty at 11:40 p.m.--and then living by the law that says 
12 hours of service.
    Now labor and Mr. Hamberger are all in agreement about that 
solution, but we cannot implement it on the property without 
you. We have tried this for 15 years ourselves. Unless you take 
strong significant action, give FRA the authority and the 
resources to do that, then we will be here next year and the 
year after that, talking about fatigue.
    Mr. Hamberger. May I just say that I am unaware that I am 
in agreement?
    [Laughter.]
    Mr. LaTourette. Before I give you the opportunity to 
express your agreement, I just wanted to say to Mr. Stem, I do 
find when Dr. Moore-Ede is talking about predictability and all 
the factors that go into it, it does seem to me that, if I am 
correct and maybe you can tell me how this crew calling system 
works, that people have to wait by the phone and be ready when 
the call comes to go within two hours. I don't know how you can 
do risk management. It is my understanding, right, that you 
need to stay by the phone and if you get a call, you are off to 
work.
    This is the only job I have ever had where I don't know 
what the schedule is on a day to day basis, and sometimes I get 
tired. I will tell you that.
    Is that correct? Is that how the crew calling thing works?
    Mr. Stem. Yes, sir, that is exactly how it works, and I 
came through that system before there was a cell phone, before 
there was a pager. Thank the Lord I was able to keep my 
employment.
    Today in times of technology when the industry comes before 
you and testifies that we have a computer system that will 
allow us to know where every one of our trains is 
instantaneously and control the movement of that train, they 
still cannot give an employee who they consider to be a safety-
sensitive employee more than a two hour notice, and it is worse 
than no notice. They are aggravating the issue by the fact that 
they will tell that employee that we are expecting you to go to 
work in 12 or 14 or 16 hours and most of the time, a majority 
of the time, those lineups that they give the employees are 
totally inaccurate.
    So, without that 12 hour notice and without living up the 
hours of service law by the elimination of limbo time, then 
there is no solution.
    Mr. LaTourette. I am still going to get to you, Mr. 
Hamberger, but I am glad you brought up the complicity element 
because I thought it was instructive when Administrator 
Boardman was here, and he was talking about his commercial 
driver's license, and I think he admitted to us that he drove 
when he wasn't supposed to drive, so he could maximize his 
earnings.
    One of the things I hear from some of the younger 
railroaders are that you have these mileage hogs that like to 
drive the long distance trains and maximize their earnings. 
Nobody can fault them for that, but perhaps if we went back to 
some of these other things, we would do a little bit better.
    Mr. Hamberger, would you want to express your agreement 
with Mr. Stem or your disagreement?
    Mr. Hamberger. I do not believe that we share his desire to 
change the hours of service. What we are trying to do and what 
most of our members have moved to is a 10 hour guaranteed rest 
period after the employee leaves service to allow for an 
opportunity for rest. We are trying to do what we can, using 
the technology, using the internet to give as much notice as 
possible, to try to predict the first in, first out lineup, 
when the employee will need to be back, looking at the lineup 
for the trains coming.
    As I pointed out in my testimony, it is an inexact science. 
There are lots of things that come into play, affecting the 
schedule, but we are trying to move a scheduled railroad in 
many cases, so that there is more predictability.
    With respect to limbo time, we believe that the Supreme 
Court had it right. When the employee is dead on the log, they 
are not performing safety-critical functions at that point and 
their rest period does not begin until they return to the 
terminal, so that the rest is not affected at that point. And 
so, we believe that the Supreme Court had it right.
    Mr. LaTourette. I thank you.
    Mr. Tolman or Mr. Pickett, do you want to say anything 
about mileage before I yield to Ms. Johnson?
    Mr. Pickett. My only comment is on Mr. Hamberger talked 
about technology, the technology of stopping a train. That 
technology has been there for many years. If that is what he is 
waiting on, we can assure him that can be installed today. I 
mean we don't need a meeting this afternoon to find out if it 
is there.
    The adequate work force is the biggest thing. Our system, 
our setup, we are one of the non-operating railroad unions, and 
our members are under the Hours of Service Act, and they are on 
call 24 hours a day, 7 days a week, especially if they are in 
maintenance. I mean you could get off at 4:00 in the afternoon 
and possibly go to bed at 11:00 at night, be called at 12:05, 
and you are considered rested. You are considered rested for 
the next 12 to 16 hours, whichever one that railroad has 
implemented at that time.
    We feel that the 12 hour law needs to be strictly enforced, 
that it is 12 hours and that is what it should be.
    Then on the subject of dark territory that was brought up 
earlier, one of the things is there is not enough there for the 
railroads to put in a signal system. There is no question that 
the only purpose for the signal system is for safety. When you 
can run trains at 49 miles per hour in dark territory, they are 
not going to put in a signal system. They are willing to take 
that chance of running that train with a switch that is thrown 
in the wrong direction and no one knowing it. You get on a 
train running at 49 miles per hour and try to stop if a switch 
is aligned improperly, it is not possible. You can't do it.
    So there are solutions out there for railroads who are 
committed to really looking at it.
    Mr. LaTourette. Thank you.
    Mr. Tolman, the question was on collective bargaining 
agreements and mileage as opposed to service. Is there any 
thought you have?
    Mr. Tolman. Yes, thank you, Mr. Chairman.
    The collective bargaining agreements first were changed 
when it was a 100 mile a day rule, and that was changed to 130 
miles. It just simply comes down to productivity. The railroads 
thought that they could get more out of the crews if they 
allowed them to work under the hours of services versus the 
mileage component.
    There is also one issue regarding that which is if a crew 
is outlawed after 12 hours, they are not necessarily paid while 
they are under limbo time, and that is one of the arguments 
that the carriers always throw at us. In some of the pools, 
unless you work beyond the mileage component which still comes 
into play on the National Freight Agreement, then you won't be 
paid until you get to your final resting point.
    My colleague, Mr. Hamberger, mentioned about the limbo 
time, and I need to go back to that again because it is a 
little misleading to say that safety is not diminished because 
crews are not performing service during the limbo time. The 
unfortunate thing is, as the good doctor pointed out, it is 
very disruptive to the human circadian rhythm if you constantly 
are working 12 hours and then are in limbo time for an extended 
amount of time. It is not just that they are not performing 
service. In fact, they are performing service. They do have to 
be alert. They are under the operating rules as I stated. I 
don't mean to get off the point here.
    Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you.
    Mr. Hamberger?
    Mr. Hamberger. I neglected to answer your question actually 
because I was so thrown off by agreeing with Mr. Stem.
    When you were asking about mileage and complicity, 
Administrator Boardman mentioned and there is a railroad that 
did offer its employees a guaranteed 10 hour rest period after 
they left service, but that had to be agreed to. It had to be 
voted upon crew district by crew district, and it was agreed in 
many crew districts to accept that 10 hours off at the home 
terminal, but they did not want to have 10 hours off at an away 
terminal, so that they could take an earlier train to get back 
home irrespective of the impact that may or may not have had on 
their fatigue. It was impossible, under the collective 
bargaining agreement, for the railroad to impose that.
    With respect to mileage in a crew district, it is my 
understanding that over the years, the mileage is both a 
minimum and a maximum and has been arrived at, as Mr. Stem 
indicated, in negotiations with the local union leadership. And 
so that is an agreement that once it is reached, it has to be 
negotiated again to change.
    Mr. LaTourette. Thank you very much.
    Ms. Johnson tells me she doesn't have any more questions.
    Ms. Schwartz doesn't have any more questions
    Well, then I want to thank you all for coming and answering 
our questions today. Mr. Hamberger, thank you for giving me the 
compliment about where we seated you, but actually how that 
came about is the last time Mr. Stem was here, he had so many 
important things to say that his testimony took about 20 
minutes. I thought if I put you next to him, maybe we could 
keep you both to about five, and we did that today.
    [Laughter.]
    Mr. LaTourette. So I thank you very much.
    There being no further business, we are adjourned.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0662.003
    
    [GRAPHIC] [TIFF OMITTED] T0662.004
    
    [GRAPHIC] [TIFF OMITTED] T0662.005
    
    [GRAPHIC] [TIFF OMITTED] T0662.006
    
    [GRAPHIC] [TIFF OMITTED] T0662.007
    
    [GRAPHIC] [TIFF OMITTED] T0662.008
    
    [GRAPHIC] [TIFF OMITTED] T0662.009
    
    [GRAPHIC] [TIFF OMITTED] T0662.010
    
    [GRAPHIC] [TIFF OMITTED] T0662.011
    
    [GRAPHIC] [TIFF OMITTED] T0662.012
    
    [GRAPHIC] [TIFF OMITTED] T0662.013
    
    [GRAPHIC] [TIFF OMITTED] T0662.014
    
    [GRAPHIC] [TIFF OMITTED] T0662.015
    
    [GRAPHIC] [TIFF OMITTED] T0662.016
    
    [GRAPHIC] [TIFF OMITTED] T0662.017
    
    [GRAPHIC] [TIFF OMITTED] T0662.018
    
    [GRAPHIC] [TIFF OMITTED] T0662.019
    
    [GRAPHIC] [TIFF OMITTED] T0662.020
    
    [GRAPHIC] [TIFF OMITTED] T0662.021
    
    [GRAPHIC] [TIFF OMITTED] T0662.022
    
    [GRAPHIC] [TIFF OMITTED] T0662.023
    
    [GRAPHIC] [TIFF OMITTED] T0662.024
    
    [GRAPHIC] [TIFF OMITTED] T0662.025
    
    [GRAPHIC] [TIFF OMITTED] T0662.026
    
    [GRAPHIC] [TIFF OMITTED] T0662.027
    
    [GRAPHIC] [TIFF OMITTED] T0662.028
    
    [GRAPHIC] [TIFF OMITTED] T0662.029
    
    [GRAPHIC] [TIFF OMITTED] T0662.030
    
    [GRAPHIC] [TIFF OMITTED] T0662.031
    
    [GRAPHIC] [TIFF OMITTED] T0662.032
    
    [GRAPHIC] [TIFF OMITTED] T0662.033
    
    [GRAPHIC] [TIFF OMITTED] T0662.034
    
    [GRAPHIC] [TIFF OMITTED] T0662.035
    
    [GRAPHIC] [TIFF OMITTED] T0662.036
    
    [GRAPHIC] [TIFF OMITTED] T0662.037
    
    [GRAPHIC] [TIFF OMITTED] T0662.038
    
    [GRAPHIC] [TIFF OMITTED] T0662.039
    
    [GRAPHIC] [TIFF OMITTED] T0662.040
    
    [GRAPHIC] [TIFF OMITTED] T0662.041
    
    [GRAPHIC] [TIFF OMITTED] T0662.042
    
    [GRAPHIC] [TIFF OMITTED] T0662.043
    
    [GRAPHIC] [TIFF OMITTED] T0662.044
    
    [GRAPHIC] [TIFF OMITTED] T0662.045
    
    [GRAPHIC] [TIFF OMITTED] T0662.046
    
    [GRAPHIC] [TIFF OMITTED] T0662.047
    
    [GRAPHIC] [TIFF OMITTED] T0662.048
    
    [GRAPHIC] [TIFF OMITTED] T0662.049
    
    [GRAPHIC] [TIFF OMITTED] T0662.050
    
    [GRAPHIC] [TIFF OMITTED] T0662.051
    
    [GRAPHIC] [TIFF OMITTED] T0662.052
    
    [GRAPHIC] [TIFF OMITTED] T0662.053
    
    [GRAPHIC] [TIFF OMITTED] T0662.054
    
    [GRAPHIC] [TIFF OMITTED] T0662.055
    
    [GRAPHIC] [TIFF OMITTED] T0662.056
    
    [GRAPHIC] [TIFF OMITTED] T0662.057
    
    [GRAPHIC] [TIFF OMITTED] T0662.058
    
    [GRAPHIC] [TIFF OMITTED] T0662.059
    
    [GRAPHIC] [TIFF OMITTED] T0662.060
    
    [GRAPHIC] [TIFF OMITTED] T0662.061
    
    [GRAPHIC] [TIFF OMITTED] T0662.062
    
    [GRAPHIC] [TIFF OMITTED] T0662.063
    
    [GRAPHIC] [TIFF OMITTED] T0662.064
    
    [GRAPHIC] [TIFF OMITTED] T0662.065
    
    [GRAPHIC] [TIFF OMITTED] T0662.066
    
    [GRAPHIC] [TIFF OMITTED] T0662.067
    
    [GRAPHIC] [TIFF OMITTED] T0662.068
    
    [GRAPHIC] [TIFF OMITTED] T0662.069
    
    [GRAPHIC] [TIFF OMITTED] T0662.070
    
    [GRAPHIC] [TIFF OMITTED] T0662.071
    
    [GRAPHIC] [TIFF OMITTED] T0662.072
    
    [GRAPHIC] [TIFF OMITTED] T0662.073
    
    [GRAPHIC] [TIFF OMITTED] T0662.074
    
    [GRAPHIC] [TIFF OMITTED] T0662.075
    
    [GRAPHIC] [TIFF OMITTED] T0662.076
    
    [GRAPHIC] [TIFF OMITTED] T0662.077
    
    [GRAPHIC] [TIFF OMITTED] T0662.078
    
    [GRAPHIC] [TIFF OMITTED] T0662.079
    
    [GRAPHIC] [TIFF OMITTED] T0662.080
    
    [GRAPHIC] [TIFF OMITTED] T0662.081
    
    [GRAPHIC] [TIFF OMITTED] T0662.082
    
    [GRAPHIC] [TIFF OMITTED] T0662.083
    
    [GRAPHIC] [TIFF OMITTED] T0662.084
    
    [GRAPHIC] [TIFF OMITTED] T0662.085
    
    [GRAPHIC] [TIFF OMITTED] T0662.086
    
    [GRAPHIC] [TIFF OMITTED] T0662.087
    
    [GRAPHIC] [TIFF OMITTED] T0662.088
    
    [GRAPHIC] [TIFF OMITTED] T0662.089
    
    [GRAPHIC] [TIFF OMITTED] T0662.090
    
    [GRAPHIC] [TIFF OMITTED] T0662.091
    
    [GRAPHIC] [TIFF OMITTED] T0662.092
    
    [GRAPHIC] [TIFF OMITTED] T0662.093
    
    [GRAPHIC] [TIFF OMITTED] T0662.094
    
    [GRAPHIC] [TIFF OMITTED] T0662.095
    
    [GRAPHIC] [TIFF OMITTED] T0662.096
    
    [GRAPHIC] [TIFF OMITTED] T0662.097
    
    [GRAPHIC] [TIFF OMITTED] T0662.098
    
    [GRAPHIC] [TIFF OMITTED] T0662.099
    
    [GRAPHIC] [TIFF OMITTED] T0662.100
    
    [GRAPHIC] [TIFF OMITTED] T0662.101
    
    [GRAPHIC] [TIFF OMITTED] T0662.102
    
    [GRAPHIC] [TIFF OMITTED] T0662.103
    
    [GRAPHIC] [TIFF OMITTED] T0662.104
    
    [GRAPHIC] [TIFF OMITTED] T0662.105
    
    [GRAPHIC] [TIFF OMITTED] T0662.106
    
    [GRAPHIC] [TIFF OMITTED] T0662.107
    
    [GRAPHIC] [TIFF OMITTED] T0662.108
    
    [GRAPHIC] [TIFF OMITTED] T0662.109
    
    [GRAPHIC] [TIFF OMITTED] T0662.110
    
    [GRAPHIC] [TIFF OMITTED] T0662.111
    
    [GRAPHIC] [TIFF OMITTED] T0662.112
    
    [GRAPHIC] [TIFF OMITTED] T0662.113
    
    [GRAPHIC] [TIFF OMITTED] T0662.114
    
    [GRAPHIC] [TIFF OMITTED] T0662.115
    
    [GRAPHIC] [TIFF OMITTED] T0662.116
    
    [GRAPHIC] [TIFF OMITTED] T0662.117
    
    [GRAPHIC] [TIFF OMITTED] T0662.118
    
    [GRAPHIC] [TIFF OMITTED] T0662.119
    
    [GRAPHIC] [TIFF OMITTED] T0662.120
    
    [GRAPHIC] [TIFF OMITTED] T0662.121
    
    [GRAPHIC] [TIFF OMITTED] T0662.122
    
    [GRAPHIC] [TIFF OMITTED] T0662.123
    
    [GRAPHIC] [TIFF OMITTED] T0662.124
    
    [GRAPHIC] [TIFF OMITTED] T0662.125
    
    [GRAPHIC] [TIFF OMITTED] T0662.126
    
    [GRAPHIC] [TIFF OMITTED] T0662.127
    
    [GRAPHIC] [TIFF OMITTED] T0662.128
    
    [GRAPHIC] [TIFF OMITTED] T0662.129
    
    [GRAPHIC] [TIFF OMITTED] T0662.130
    
    [GRAPHIC] [TIFF OMITTED] T0662.131
    
    [GRAPHIC] [TIFF OMITTED] T0662.132
    
    [GRAPHIC] [TIFF OMITTED] T0662.133
    
    [GRAPHIC] [TIFF OMITTED] T0662.134
    
    [GRAPHIC] [TIFF OMITTED] T0662.135
    
    [GRAPHIC] [TIFF OMITTED] T0662.136
    
    [GRAPHIC] [TIFF OMITTED] T0662.137
    
    [GRAPHIC] [TIFF OMITTED] T0662.138
    
    [GRAPHIC] [TIFF OMITTED] T0662.139
    
    [GRAPHIC] [TIFF OMITTED] T0662.140
    
    [GRAPHIC] [TIFF OMITTED] T0662.141
    
    [GRAPHIC] [TIFF OMITTED] T0662.142
    
    [GRAPHIC] [TIFF OMITTED] T0662.143
    
    [GRAPHIC] [TIFF OMITTED] T0662.144
    
    [GRAPHIC] [TIFF OMITTED] T0662.145
    
    [GRAPHIC] [TIFF OMITTED] T0662.146
    
    [GRAPHIC] [TIFF OMITTED] T0662.147
    
    [GRAPHIC] [TIFF OMITTED] T0662.148
    
    [GRAPHIC] [TIFF OMITTED] T0662.149
    
    [GRAPHIC] [TIFF OMITTED] T0662.150
    
    [GRAPHIC] [TIFF OMITTED] T0662.151
    
    [GRAPHIC] [TIFF OMITTED] T0662.152
    
    [GRAPHIC] [TIFF OMITTED] T0662.153
    
    [GRAPHIC] [TIFF OMITTED] T0662.154
    
    [GRAPHIC] [TIFF OMITTED] T0662.155
    
    [GRAPHIC] [TIFF OMITTED] T0662.156
    
    [GRAPHIC] [TIFF OMITTED] T0662.157
    
    [GRAPHIC] [TIFF OMITTED] T0662.158
    
    [GRAPHIC] [TIFF OMITTED] T0662.159
    
    [GRAPHIC] [TIFF OMITTED] T0662.160
    
    [GRAPHIC] [TIFF OMITTED] T0662.161
    
    [GRAPHIC] [TIFF OMITTED] T0662.162
    
    [GRAPHIC] [TIFF OMITTED] T0662.163
    
    [GRAPHIC] [TIFF OMITTED] T0662.164
    
    [GRAPHIC] [TIFF OMITTED] T0662.165
    
    [GRAPHIC] [TIFF OMITTED] T0662.166
    
    [GRAPHIC] [TIFF OMITTED] T0662.167
    
    [GRAPHIC] [TIFF OMITTED] T0662.168
    
    [GRAPHIC] [TIFF OMITTED] T0662.169
    
    [GRAPHIC] [TIFF OMITTED] T0662.170
    
    [GRAPHIC] [TIFF OMITTED] T0662.171
    
    [GRAPHIC] [TIFF OMITTED] T0662.172
    
    [GRAPHIC] [TIFF OMITTED] T0662.173
    
    [GRAPHIC] [TIFF OMITTED] T0662.174
    
    [GRAPHIC] [TIFF OMITTED] T0662.175
    
    [GRAPHIC] [TIFF OMITTED] T0662.176
    
    [GRAPHIC] [TIFF OMITTED] T0662.177
    
    [GRAPHIC] [TIFF OMITTED] T0662.178
    
    [GRAPHIC] [TIFF OMITTED] T0662.179
    
    [GRAPHIC] [TIFF OMITTED] T0662.180
    
    [GRAPHIC] [TIFF OMITTED] T0662.181
    
    [GRAPHIC] [TIFF OMITTED] T0662.182
    
    [GRAPHIC] [TIFF OMITTED] T0662.183
    
    [GRAPHIC] [TIFF OMITTED] T0662.184
    
    [GRAPHIC] [TIFF OMITTED] T0662.185
    
    [GRAPHIC] [TIFF OMITTED] T0662.186
    
    [GRAPHIC] [TIFF OMITTED] T0662.187
    
    [GRAPHIC] [TIFF OMITTED] T0662.188
    
    [GRAPHIC] [TIFF OMITTED] T0662.189
    
    [GRAPHIC] [TIFF OMITTED] T0662.190
    
    [GRAPHIC] [TIFF OMITTED] T0662.191
    
    [GRAPHIC] [TIFF OMITTED] T0662.192
    
    [GRAPHIC] [TIFF OMITTED] T0662.193
    
    [GRAPHIC] [TIFF OMITTED] T0662.194
    
    [GRAPHIC] [TIFF OMITTED] T0662.195
    
    [GRAPHIC] [TIFF OMITTED] T0662.196
    
    [GRAPHIC] [TIFF OMITTED] T0662.197
    
    [GRAPHIC] [TIFF OMITTED] T0662.198
    
    [GRAPHIC] [TIFF OMITTED] T0662.199
    
    [GRAPHIC] [TIFF OMITTED] T0662.200
    
    [GRAPHIC] [TIFF OMITTED] T0662.201
    
    [GRAPHIC] [TIFF OMITTED] T0662.202
    
    [GRAPHIC] [TIFF OMITTED] T0662.203
    
    [GRAPHIC] [TIFF OMITTED] T0662.204
    
    [GRAPHIC] [TIFF OMITTED] T0662.205
    
    [GRAPHIC] [TIFF OMITTED] T0662.206
    
    [GRAPHIC] [TIFF OMITTED] T0662.207
    
    [GRAPHIC] [TIFF OMITTED] T0662.208
    
    [GRAPHIC] [TIFF OMITTED] T0662.209
    
    [GRAPHIC] [TIFF OMITTED] T0662.210
    
    [GRAPHIC] [TIFF OMITTED] T0662.211
    
    [GRAPHIC] [TIFF OMITTED] T0662.212
    
    [GRAPHIC] [TIFF OMITTED] T0662.213
    
    [GRAPHIC] [TIFF OMITTED] T0662.214
    
    [GRAPHIC] [TIFF OMITTED] T0662.215
    
    [GRAPHIC] [TIFF OMITTED] T0662.216
    
    [GRAPHIC] [TIFF OMITTED] T0662.217
    
    [GRAPHIC] [TIFF OMITTED] T0662.218
    
    [GRAPHIC] [TIFF OMITTED] T0662.219
    
    [GRAPHIC] [TIFF OMITTED] T0662.220
    
    [GRAPHIC] [TIFF OMITTED] T0662.221
    
    [GRAPHIC] [TIFF OMITTED] T0662.222
    
    [GRAPHIC] [TIFF OMITTED] T0662.223
    
    [GRAPHIC] [TIFF OMITTED] T0662.224
    
    [GRAPHIC] [TIFF OMITTED] T0662.225
    
    [GRAPHIC] [TIFF OMITTED] T0662.226
    
    [GRAPHIC] [TIFF OMITTED] T0662.227
    
    [GRAPHIC] [TIFF OMITTED] T0662.228
    
    [GRAPHIC] [TIFF OMITTED] T0662.229
    
    [GRAPHIC] [TIFF OMITTED] T0662.230
    
    [GRAPHIC] [TIFF OMITTED] T0662.231
    
    [GRAPHIC] [TIFF OMITTED] T0662.232
    
    [GRAPHIC] [TIFF OMITTED] T0662.233
    
    [GRAPHIC] [TIFF OMITTED] T0662.234
    
    [GRAPHIC] [TIFF OMITTED] T0662.235
    
    [GRAPHIC] [TIFF OMITTED] T0662.236
    
    [GRAPHIC] [TIFF OMITTED] T0662.237
    
    [GRAPHIC] [TIFF OMITTED] T0662.238
    
    [GRAPHIC] [TIFF OMITTED] T0662.239
    
    [GRAPHIC] [TIFF OMITTED] T0662.240
    
    [GRAPHIC] [TIFF OMITTED] T0662.241
    
    [GRAPHIC] [TIFF OMITTED] T0662.242
    
    [GRAPHIC] [TIFF OMITTED] T0662.243
    
    [GRAPHIC] [TIFF OMITTED] T0662.244
    
    [GRAPHIC] [TIFF OMITTED] T0662.245
    
    [GRAPHIC] [TIFF OMITTED] T0662.246
    
    [GRAPHIC] [TIFF OMITTED] T0662.247
    
    [GRAPHIC] [TIFF OMITTED] T0662.248
    
    [GRAPHIC] [TIFF OMITTED] T0662.249
    
    [GRAPHIC] [TIFF OMITTED] T0662.250
    
    [GRAPHIC] [TIFF OMITTED] T0662.251
    
    [GRAPHIC] [TIFF OMITTED] T0662.252
    
    [GRAPHIC] [TIFF OMITTED] T0662.253
    
    [GRAPHIC] [TIFF OMITTED] T0662.254
    
    [GRAPHIC] [TIFF OMITTED] T0662.255
    
    [GRAPHIC] [TIFF OMITTED] T0662.256
    
    [GRAPHIC] [TIFF OMITTED] T0662.257
    
    [GRAPHIC] [TIFF OMITTED] T0662.258
    
    [GRAPHIC] [TIFF OMITTED] T0662.259
    
    [GRAPHIC] [TIFF OMITTED] T0662.260
    
    [GRAPHIC] [TIFF OMITTED] T0662.261
    
    [GRAPHIC] [TIFF OMITTED] T0662.262
    
    [GRAPHIC] [TIFF OMITTED] T0662.263
    
    [GRAPHIC] [TIFF OMITTED] T0662.264
    
    [GRAPHIC] [TIFF OMITTED] T0662.265
    
    [GRAPHIC] [TIFF OMITTED] T0662.266
    
    [GRAPHIC] [TIFF OMITTED] T0662.267
    
    [GRAPHIC] [TIFF OMITTED] T0662.268
    
    [GRAPHIC] [TIFF OMITTED] T0662.269
    
    [GRAPHIC] [TIFF OMITTED] T0662.270
    
    [GRAPHIC] [TIFF OMITTED] T0662.271
    
    [GRAPHIC] [TIFF OMITTED] T0662.272
    
    [GRAPHIC] [TIFF OMITTED] T0662.273
    
    [GRAPHIC] [TIFF OMITTED] T0662.274
    
    [GRAPHIC] [TIFF OMITTED] T0662.275
    
    [GRAPHIC] [TIFF OMITTED] T0662.276
    
    [GRAPHIC] [TIFF OMITTED] T0662.277
    
    [GRAPHIC] [TIFF OMITTED] T0662.278
    
    [GRAPHIC] [TIFF OMITTED] T0662.279
    
    [GRAPHIC] [TIFF OMITTED] T0662.280
    
    [GRAPHIC] [TIFF OMITTED] T0662.281
    
    [GRAPHIC] [TIFF OMITTED] T0662.282
    
    [GRAPHIC] [TIFF OMITTED] T0662.283
    
    [GRAPHIC] [TIFF OMITTED] T0662.284
    
    [GRAPHIC] [TIFF OMITTED] T0662.285
    
    [GRAPHIC] [TIFF OMITTED] T0662.286
    
    [GRAPHIC] [TIFF OMITTED] T0662.287
    
    [GRAPHIC] [TIFF OMITTED] T0662.288
    
    [GRAPHIC] [TIFF OMITTED] T0662.289
    
    [GRAPHIC] [TIFF OMITTED] T0662.290
    
    [GRAPHIC] [TIFF OMITTED] T0662.291
    
    [GRAPHIC] [TIFF OMITTED] T0662.292
    
    [GRAPHIC] [TIFF OMITTED] T0662.293
    
    [GRAPHIC] [TIFF OMITTED] T0662.294
    
    [GRAPHIC] [TIFF OMITTED] T0662.295
    
    [GRAPHIC] [TIFF OMITTED] T0662.296
    
    [GRAPHIC] [TIFF OMITTED] T0662.297
    
    [GRAPHIC] [TIFF OMITTED] T0662.298
    
    [GRAPHIC] [TIFF OMITTED] T0662.299
    
    [GRAPHIC] [TIFF OMITTED] T0662.300
    
    [GRAPHIC] [TIFF OMITTED] T0662.301
    
    [GRAPHIC] [TIFF OMITTED] T0662.302
    
    [GRAPHIC] [TIFF OMITTED] T0662.303
    
    [GRAPHIC] [TIFF OMITTED] T0662.304
    
    [GRAPHIC] [TIFF OMITTED] T0662.305
    
    [GRAPHIC] [TIFF OMITTED] T0662.306
    
    [GRAPHIC] [TIFF OMITTED] T0662.307
    
    [GRAPHIC] [TIFF OMITTED] T0662.308
    
    [GRAPHIC] [TIFF OMITTED] T0662.309
    
    [GRAPHIC] [TIFF OMITTED] T0662.310
    
    [GRAPHIC] [TIFF OMITTED] T0662.311
    
    [GRAPHIC] [TIFF OMITTED] T0662.312
    
    [GRAPHIC] [TIFF OMITTED] T0662.313
    
    [GRAPHIC] [TIFF OMITTED] T0662.314
    
    [GRAPHIC] [TIFF OMITTED] T0662.315
    
    [GRAPHIC] [TIFF OMITTED] T0662.316
    
    [GRAPHIC] [TIFF OMITTED] T0662.317
    
    [GRAPHIC] [TIFF OMITTED] T0662.318
    
    [GRAPHIC] [TIFF OMITTED] T0662.319
    
    [GRAPHIC] [TIFF OMITTED] T0662.320
    
    [GRAPHIC] [TIFF OMITTED] T0662.321
    
    [GRAPHIC] [TIFF OMITTED] T0662.322
    
    [GRAPHIC] [TIFF OMITTED] T0662.323
    
    [GRAPHIC] [TIFF OMITTED] T0662.324
    
    [GRAPHIC] [TIFF OMITTED] T0662.325
    
                                    

</pre></body></html>
